                                  Table of Contents
Inspector General’s Message to Congress ................................................................................ 1

TIGTA’s Highlights .....................................................................................................................         3
TIGTA’s Profile ......................................................................................................................           5
    Statutory Mandate ..................................................................................................................         5
    Organizational Structure ........................................................................................................            6
    Authorities ..............................................................................................................................   6

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .................... 7
    Systems Modernization of the Internal Revenue Service ...................................................... 7
    Tax Compliance Initiatives .................................................................................................... 10
    Tax-Exempt Organizations .................................................................................................. 13
    Security of the Internal Revenue Service ............................................................................... 13
    Providing Quality Taxpayer Service Operations ................................................................... 15
    Complexity of Tax Law ......................................................................................................... 20
    Using Performance and Financial Information for Program and Budget Decisions ........ 21
    Erroneous and Improper Payments ........................................................................................ 23

Protect the Integrity of Tax Administration ............................................................................ 25
     TIGTA’s Investigative Performance Model ......................................................................... 26
     Employee Integrity.................................................................................................................. 27
     Employee and Infrastructure Security .................................................................................... 30
     External Attempts to Corrupt Tax Administration ................................................................ 32

Congressional Testimony ............................................................................................................. 41

Awards and Special Achievements ............................................................................................ 43

Audit Statistical Reports .............................................................................................................. 45
     Reports with Questioned Costs .............................................................................................. 45
     Reports with Recommendations that Funds Be Put to Better Use ......................................... 46
     Reports with Additional Quantifiable Impact on Tax Administration .................................. 47

Investigations Statistical Reports ............................................................................................... 49
     Significant Investigative Achievements ................................................................................. 49
     Status of Closed Criminal Investigations ............................................................................... 50
     Criminal Dispositions ............................................................................................................ 50
     Administrative Dispositions on Closed TIGTA Investigations ............................................. 50




                                                                           iii
Appendices
Appendix I – Statistical Reports – Other .................................................................................. 51
    Audit Reports with Significant Unimplemented Corrective Actions .................................... 51
    Other Statistical Reports ........................................................................................................ 59

Appendix II – Audit Products ..................................................................................................... 61

Appendix III – TIGTA’s Statutory Reporting Requirements ............................................... 67

Appendix IV – Section 1203 Standards ..................................................................................... 73

Appendix V – Data Tables Provided by the IRS ..................................................................... 75
    IRS Memorandum .................................................................................................................. 75
    Report of Employee Misconduct, Summary by Disposition Groups ..................................... 76
    Report of Employee Misconduct, National Summary ........................................................... 77
    Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ...................... 78




                                                                      iv
                             Inspector General’s
                             Message to Congress



O        ur Nation’s security relies on a government with sufficient resources to protect, defend,
         and serve its people. Each year, taxpayers send approximately $2.3 trillion to the U.S.
         Treasury, trusting that their hard-earned money will be collected fairly, and processed
efficiently and effectively. In 1998, Congress created the office of the Treasury Inspector
General for Tax Administration (TIGTA) to assure the American public that their tax dollars
are accurately assessed and that the Internal Revenue Service (IRS) is held to a high level of
accountability. I am dedicated to upholding this vitally important mission.

I am proud of our accomplishments and pleased to present TIGTA’s Semiannual Report to
Congress. This report highlights notable audits and investigations conducted between April 1,
2007, and September 30, 2007, and summarizes the results of our work. Over the last six
months, TIGTA has completed 119 audits that identified more than $16.2 million in total cost
savings and more than $1.31 billion in increased or protected revenue. TIGTA’s Office of
Chief Counsel has reviewed and made recommendations on the impact of 183 proposed or
existing regulations and laws affecting tax administration.

The IRS continues to face many challenges, both internal and external. Recent reports by
TIGTA’s Office of Audit have raised concerns about the IRS’ Questionable Refund Program,
its computer security risks, and its ability to match names and identification numbers on tax
documents – all of which are costing the Federal Treasury and taxpayers in excess of $1.5
billion. These and other concerns have reinforced my priorities for TIGTA, which include:
overseeing IRS efforts to modernize technology; monitoring IRS initiatives to improve tax
compliance; and enhancing TIGTA’s ability to protect tax administration from corruption.

Helping to secure the sensitive financial and personal data entrusted to the IRS by taxpayers is
of the utmost importance to TIGTA. The IRS processes and maintains personally identifiable
information for more than 130 million taxpayers. While the IRS has taken several noteworthy
actions to protect this information, TIGTA reviews have concluded that IRS employees are still
not complying with basic computer security practices.

Unauthorized access to confidential tax information (UNAX) by IRS employees also continues
to pose a serious threat to the security of taxpayer data. Over the last six months, TIGTA’s
Office of Investigations opened 279 new UNAX cases and closed 335 UNAX cases, 324



                                                                                                1
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
of which resulted in disciplinary action against IRS employees. Our investigators have also
provided fraud awareness presentations at training conferences and meetings to more than
28,000 tax practitioners and IRS employees. This outreach has enabled TIGTA to develop
relationships with groups that have the potential to assist in identifying corruption within our
tax administration system.

I commend the men and women of TIGTA for their dedication and outstanding service to the
people of this great Nation.


                                            Sincerely,



                                        J. Russell George
                                        Inspector General




   2
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     TIGTA’s Highlights
The following table shows TIGTA’s statistical highlights for this semiannual reporting period as well as
all of Fiscal Year 2007.

                                                                                                         Regulations/
                                                        Increased/         No. of         No. of         Legislative
                  Number of Audit     Cost Savings      Protected          Investigations Investigations Requests
                  Reports Completed   Identified        Revenue            Opened         Closed         Reviewed
April 1, 2007 –
Sept. 30, 2007           119            $16.2 million      $1.31 billion      1,910          2,068             183

    FY 2007              180             $22 million       $1.82 billion      3,764          3,680             325


Examples of high profile cases from the Office of Investigations:

In June 2007, the U.S. Department of Justice announced that Mellon Bank, N.A., agreed to pay $16.5
million to settle claims related to the 2001 destruction of tens of thousands of individual tax returns and
checks that the bank was supposed to process as an agent for the Treasury Department. This payment
was to reimburse the Federal Government for the value of the interest lost on the destroyed checks and
to cover the costs incurred by the Federal Government in obtaining replacement checks from the
affected taxpayers.
                         **********************************************

An individual was sentenced in the U.S. District Court, District of Oregon, to a term of 51 months of
imprisonment, $1,322,582 in restitution, and three years of supervision upon his release from prison
after pleading guilty to mail fraud, attempting to defeat the payment of tax, and impersonation.

                         **********************************************

The vice president of Public Affairs International, Inc. was sentenced to 30 months in prison to be
followed by three years of supervised release and ordered to pay restitution of $1,379,630 after pleading
guilty to conspiracy to defraud the United States and obstruction of a Federal audit.

                         **********************************************

Examples of accomplishments from the Office of Audit:

Efforts to Match Names and Identification Numbers on Tax Documents are Insufficient
TIGTA found that the IRS may be costing the U.S. Treasury billions of dollars in lost revenue. The IRS
is not matching millions of income statements with incorrect or missing identification numbers to
existing tax accounts. In Tax Year 2004 alone, the IRS received approximately 3.8 million
miscellaneous income statements reporting about $150 billion in earnings that it was not able to match




                                                                                                           3
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
to a tax account. In a review, TIGTA was able to match 50 percent of a sample of miscellaneous
income statements with incorrect or missing numbers and wage statements from Tax Year 2004 to
taxpayer accounts.

                        **********************************************

IRS’ Questionable Refund Program
The IRS relies on the Questionable Refund Program to identify and prevent fraudulent refund claims
from being paid. Over the past several years, TIGTA has reported that the program was becoming
increasingly unmanageable due to the growing number of fraudulent claims and the IRS’ lack of
resources to combat the fraud. TIGTA’s most recent audit found that changes in the program along with
a significant technological failure dramatically decreased the effectiveness of this vital program for the
2006 Filing Season. As a result, nearly $15.9 million in potentially fraudulent refunds were allowed to
be issued.

                        **********************************************

Many Taxpayers Still Not Using the IRS’ Free File Program
Fewer taxpayers took advantage of the IRS’ free electronic tax-filing service in 2007 than in previous
years. The Free File Program allows taxpayers who meet certain eligibility requirements to
electronically prepare and file their income tax returns free of charge. As of April 14, 2007, TIGTA
found that only 3.3 million taxpayers filed returns using the free service – a decline of 4.7 percent below
the same period last year. The decline in the Free File Program comes at a time when the IRS is under
pressure to increase electronic filing.

                        **********************************************

Computer Security Weakness
Many IRS employees are not complying with the basic computer security practices of protecting their
passwords and reporting potential security breaches. Posing as computer helpdesk representatives,
TIGTA called 102 IRS employees and asked them to assist in correcting a network problem. This
required the employees to temporarily change their passwords to a TIGTA-supplied password. Sixty
percent complied with these requests, despite regulations against sharing their passwords with others. In
addition, only eight employees notified TIGTA’s Office of Investigations of the possible security threat.

                        **********************************************

Elimination of the IRS’ TeleFile Program Increased Cost to Taxpayers
The IRS’ decision to shut down its free TeleFile Program has cost taxpayers millions of dollars in fees
to file their tax returns. In 2005, approximately two million taxpayers filed their tax returns at no cost
through the TeleFile Program in which simple tax returns could be filed by using a telephone keypad.
Nonetheless, citing declining usage and increasing costs associated with the program, the IRS shut it
down in August 2005. The result has been that most former TeleFile users now pay tax preparers or
purchase tax preparation software to file their returns. TIGTA estimated that more than 541,000
taxpayers who used Telefile in 2005 paid $23.6 million to file their taxes in 2006.




    4
        TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                       TIGTA's Profile


T
        IGTA provides independent oversight of Treasury Department matters involving
        IRS activities, the IRS Oversight Board, and the IRS Office of Chief Counsel.
        Although TIGTA is placed organizationally in the Treasury Departmental Offices and
reports to the Secretary of the Treasury and to
Congress, TIGTA functions independently from
the Departmental Offices and all other offices                    Statutory Mandate
and bureaus within the Department.
                                                    • Protect against external attempts to
TIGTA’s work is devoted to all aspects of               corrupt or threaten IRS employees.
activity related to the Federal tax system as       • Provide policy direction and conduct,
administered by the IRS. By identifying and             supervise, and coordinate audits and
addressing the IRS’ management challenges,              investigations related to IRS programs
implementing the President’s Management                 and operations.
Agenda and the priorities of the Department of
                                                    • Review existing and proposed legislation
the Treasury, TIGTA protects the public’s               and regulations related to IRS programs
confidence in the tax system.                           and operations, and make
                                                        recommendations concerning the impact
TIGTA’s organizational structure is comprised           of such legislation or regulations.
of four functional offices: the Office of Audit;
the Office of Investigations; the Office of Chief   • Promote economy and efficiency in the
Counsel; and the Office of Mission Support (see         administration of tax laws.
chart on page 6).                                   • Prevent and detect fraud and abuse in
                                                        IRS programs and operations.
TIGTA conducts audits and investigations            • Inform the Secretary of the Treasury
designed to:                                            and Congress of problems and
                                                        deficiencies identified and of the progress
• promote the economy, efficiency, and                  made in resolving them.
    effectiveness of tax administration; and
• protect the integrity of tax administration.




                                                                                               5
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                ORGANIZATIONAL STRUCTURE



                                                Inspector General

                                                 Principal Deputy
                                                Inspector General




                                                                    Deputy Inspector General
                           Chief Counsel                               for Investigations




                     Deputy Inspector General                   Associate Inspector General
                             for Audit                             for Mission Support




                                            AUTHORITIES

TIGTA has all of the authorities granted                 investigate potential criminal offenses under
under the Inspector General Act of 1978, as              the internal revenue laws. In addition, the
amended.1 TIGTA has access to tax                        IRS Restructuring and Reform Act of 1998
information in the performance of its tax-               (RRA 98)2 amended the Inspector General
administration responsibilities. TIGTA also              Act of 1978 to give TIGTA statutory
has the obligation to report potential criminal          authority to carry firearms, execute and serve
violations directly to the Department of                 search and arrest warrants, serve subpoenas
Justice. TIGTA and the Commissioner of                   and summonses, and make arrests as set forth
Internal Revenue have established policies               in Section 7608(b)(2) of the Internal Revenue
and procedures delineating responsibilities to           Code (I.R.C.).




                                                         2
                                                           Public Law No. 105-206, 112 Stat. 685 (codified as
                                                         amended in scattered sections of 2 U.S.C., 5 U.S.C.
                                                         app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26
1
    5 U.S.C.A. app. 3 (West Supp. 2007).                 I.R.C., 31 U.S.C. 38 U.S.C., and 49 U.S.C.).



      6
           TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
    Promote the Economy, Efficiency and
     Effectiveness of Tax Administration

T       IGTA’s Office of Audit (OA) strives to
        promote the economy, efficiency, and
        effectiveness of tax administration.
TIGTA provides recommendations to improve                  •
                                                               Audit Emphasis Areas

                                                               Systems Modernization of
IRS systems and operations while ensuring fair                 the Internal Revenue Service
and equitable treatment of taxpayers. TIGTA’s              •   Tax Compliance Initiatives
comprehensive, independent performance and                 •   Tax-Exempt Organizations
financial audits of IRS programs and operations            •   Security of the Internal
primarily involve mandated reviews and high-                   Revenue Service
risk challenges facing the IRS.                            •   Providing Quality Taxpayer
                                                               Service Operations
The IRS’ implementation of audit                           •   Complexity of Tax Law
recommendations results in: cost savings and               •   Using Performance and
increased or protected revenue; reduction of                   Financial Information for
taxpayer burden; and protection of taxpayer                    Program and Budget
rights and entitlements, taxpayer privacy and                  Decisions
security, and IRS resources.                               •   Erroneous and Improper
                                                               Payments
Each year, OA identifies and addresses the
major management challenges facing the IRS.
OA places audit emphasis on statutory coverage
required by RRA 98, and areas of concern to Congress, the Secretary of the Treasury, the
Commissioner of Internal Revenue, and other key stakeholders.

The following summaries highlight significant audits completed in each of the above
emphasis areas during this six-month reporting period.


        Systems Modernization of the Internal Revenue Service
The Business Systems Modernization (Modernization) Program is a complex effort to
modernize IRS technology and related business processes. According to the IRS, this effort
involves integrating thousands of hardware and software components. All of this must be done
while replacing outdated technology and maintaining the current tax system.




                                                                                              7
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Annual Assessment of the Business Systems Modernization Program
The Modernization Program is in its ninth year and has received approximately $2.3 billion for
contractor services. Additionally, the IRS had spent $220 million through Fiscal Year (FY)
2006 and planned to spend an additional $45 million in FY 2007 to manage the Modernization
Program.

According to the IRS’ original plan, the Modernization Program would be near the halfway
point by Calendar Year (CY) 2007. However, due to receiving less funding than initially
anticipated and having difficulties in managing contractor work, the IRS has not completed as
many modernization projects as planned.

Although the IRS has made advances in its modernization effort, it has not achieved anticipated
progress. Inconsistent compliance with project development controls has contributed to delays
in project deliveries, increased development costs, and reduced capabilities. Since FY 2002,
TIGTA’s annual assessments of the Modernization Program have cited that the IRS needs to:
1) improve key management processes and commit necessary resources to enable success;
2) manage the increasing complexity and risks of the Modernization Program; 3) maintain
continuity and strategic direction with experienced leadership; and 4) ensure that contractor
performance and accountability are effectively managed.

In FY 1995, the IRS identified its Modernization Program as a material weakness in
accordance with the Federal Managers’ Financial Integrity Act of 19823 reporting
requirements. An October 25, 2006, memorandum from the IRS Commissioner stated that the
IRS completed the actions identified in the modernization material weakness action plan that
was developed in response to the initial identification of the material weakness in FY 1995.
However, the modernization material weakness action plan has not been updated to include
weaknesses reported since 2003 by TIGTA, the Government Accountability Office (GAO), and
IRS studies.

TIGTA recommended that the IRS continue to address Modernization Program corrective
actions from TIGTA and GAO reports through the Highest Priority Initiatives process. By
focusing corrective action efforts through this process, the Modernization Program can begin to
achieve resolution of the challenges identified in this report and subsequently address
downgrading the modernization material weakness. The IRS agreed with the recommendation.
Report Reference No. 2007-20-121

Customer Account Data Engine Capabilities
The Customer Account Data Engine (CADE) will provide the foundation for managing
taxpayer accounts to achieve the IRS’ modernization vision. It consists of databases and
related applications that will replace the IRS’ official repository of taxpayer information. The
Information Technology Modernization Vision and Strategy plans for a phased replacement of
3
    31 U.S.C. Sections 1105, 1113, 3512 (2000).


    8
           TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
IRS computer systems to better support today’s tax laws, policies, and taxpayer needs. The
CADE is helping the IRS realize this strategy.

A pattern of deferring CADE project requirements to later releases and missing release
deployment dates has continued since the project’s beginning. Allowing this pattern to
continue undermines the long-term success of the project. The IRS and the PRIME contractor4
have deferred project requirements and missed target dates because they agreed to an
unrealistic scope of work, did not follow the Enterprise Life Cycle Preliminary Design Phase
guidelines, and did not assign adequate PRIME contractor staffing.

In addition, the approach taken to implement the CADE’s architectural design will not support
the project’s long-term goals and objectives. Although the CADE is being phased in over
multiple years and is processing increasingly more complex tax returns, the IRS has not
completed addressing: 1) the need to include a database that stores historical account data;
2) essential processing requirements deferred since Release 1 (first planned for implementation
in January 2002); and 3) a process to improve the efficiency of the daily processing cycle.

TIGTA recommended that the IRS negotiate a reasonable scope of work for future CADE
release development that considers the amount and difficulty of the work and filing season time
constraints. In planning future releases, the IRS should limit delivery to essential capabilities
and filing season updates, and consider postponing new capabilities until key business
decisions are made and previously deferred essential requirements have been implemented.
Finally, TIGTA recommended that the IRS review alternative design solutions and identify
process improvements for the project. The IRS agreed with the recommendations and has
agreed to take corrective actions.
Report Reference No. 2007-20-080

Contract Negotiation Methods and Management Practices
The IRS awarded 21 Modernization Program task orders during FY 2005 and 2006 with a total
contract funding amount of approximately $115 million. TIGTA determined that the IRS
needed to further refine contract negotiation and management practices for its modernization
and non-modernization systems development task orders. The IRS has already achieved
savings of nearly $3.7 million from implementing one of TIGTA’s prior recommendations.
Further improvements in applying consistent contract negotiation and management practices
would assist the IRS in assuring that taxpayer funds are being spent wisely.

TIGTA recommended that the IRS: 1) ensure that there is an appropriate balance of risk
between itself and its contractors; 2) improve pre-award processes; 3) improve monitoring of
contractor performance; and 4) improve consistency of contract negotiation and management
4
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.


                                                                                                             9
        TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
practices between modernization and non-modernization systems development task orders.
The IRS agreed with the recommendations and agreed to take or has taken corrective actions.
Report Reference No. 2007-20-123


                             Tax Compliance Initiatives
Tax compliance initiatives include administering tax regulations, collecting the correct amount
of tax for businesses and individuals, and overseeing tax-exempt and government entities for
compliance. Increasing compliance with the tax code is at the heart of IRS enforcement
programs. The IRS is focusing its casework and enforcement activities to deliver better results
and is focusing on those corporations and high-income individual taxpayers who fail to report
or pay what they owe.

Mismatched Names and Identification Numbers and the Tax Gap
TIGTA used the IRS’ automated data systems to manually research statistically valid samples
of miscellaneous income and wage statements from Tax Year (TY) 2004 with mismatched
names and identification numbers reporting more than $60,000 in earnings. TIGTA
successfully validated 50 percent of the statements and matched them to taxpayer accounts in
the IRS’ records. When projected to the document populations, the sample results indicated
that more than 6,000 individuals had not filed tax returns, although the statements reported that
they had earned, on average, more than $104,000.

TIGTA recommended that the IRS forward the observations in the report to the Department of
the Treasury to use in assessing the need for tax law changes that would allow the IRS to verify
employee identification numbers for employers and require employers to: 1) use the IRS
identification number matching system to verify the accuracy of identification numbers for
hired employees; and 2) withhold taxes at the maximum rates from those whose identification
numbers do not match IRS records. TIGTA also recommended that IRS automated data
systems be used to research, resolve, and investigate high-dollar miscellaneous income and
wage statements with mismatched names and identification numbers.

IRS management agreed with the first recommendation but does not plan to take any action on
the second recommendation. In deciding not to take action, IRS management noted that the
additional cost of manually perfecting mismatched names and identification numbers on
miscellaneous income and wage statements may exceed the monetary benefits. TIGTA found
it puzzling that the IRS decided not to act on the recommendation based on a cost/benefit
concern because the estimated benefit of more than $233 million in additional revenue exceeds
by a large margin the costs the IRS would incur.
Report Reference No. 2007-30-159




 10
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Contributions of Motor Vehicles
In 2004, Congress passed legislation limiting the deductions and adding reporting
requirements for taxpayers who make charitable contributions of motor vehicles. Individual
taxpayers are now required to file a Contributions of Motor Vehicles, Boats, and Airplanes
(Form 1098-C) or a written acknowledgement from the charity, in addition to Noncash
Charitable Contributions (Form 8283) if their charitable deductions claimed for donated motor
vehicles exceed $500.

The IRS revised tax forms and publications, and provided training and information to
employees to facilitate implementation of the new requirements for claiming deductions for
charitable contributions of motor vehicles. However, taxpayers and tax practitioners still need
to be better educated concerning requirements for claiming deductions for donated motor
vehicles. Also, additional procedures need to be established to identify noncompliance with
motor vehicle donation requirements during returns processing. TIGTA estimated that
104,846 taxpayers could have claimed unsubstantiated motor vehicle donations totaling
approximately $209 million for the tax year ending December 31, 2005.

TIGTA recommended that: 1) an outreach plan be developed concerning the reporting
requirements for motor vehicle donations; and 2) the IRS threshold be lowered to ensure that
most of the returns claiming unsubstantiated deductions are addressed and missing Forms 8283
and supporting documentation are obtained. IRS officials disagreed with the need for an
outreach plan, stating that the timing of our review was a factor in the high-noncompliance rate.
They also stated that they believed corrective actions from a prior report on noncash
contributions would address unsubstantiated deductions. However, Congress specifically
provided different substantiation levels for motor vehicles. Also, the IRS’ planned corrective
actions to address returns without required substantiation for contributions of motor vehicles
will result in virtually no change. TIGTA plans to perform a follow-up audit to determine if the
compliance rate significantly improves.
Report Reference No. 2007-30-171

Taxpayers with Schedule C Losses and Tax Abuse
I.R.C. Section (§) 183 (Activities not engaged in for profit), also referred to as the “hobby loss”
provision, and related Treasury Regulation § 1.183-1 do not establish specific criteria for the
IRS to use to determine whether or not a Profit or Loss from Business (Schedule C) loss is a
legitimate business expense without conducting a full examination of an individual’s books and
records. The purpose of the hobby loss provision is to limit the ability of wealthy individuals
with multiple sources of income to apply losses incurred in “side-line” diversions to reduce
their overall tax liabilities. TIGTA’s analysis showed that 332,615 high-income taxpayers
received the greatest benefit by potentially avoiding approximately $1.9 billion in taxes for TY
2005.




                                                                                                 11
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
The I.R.C. and Treasury Regulations do not require a taxpayer to have a reasonable expectation
of profit; rather, the taxpayer needs just the “objective” of making a profit. As written, I.R.C. §
183 makes it difficult for the IRS to efficiently administer a tax law that ensures taxpayers are
not deducting not-for-profit losses to reduce their taxes on other incomes year after year.

TIGTA recommended that the IRS provide a copy of this report to the Department of the
Treasury, Office of the Assistant Secretary for Tax Policy, to consider proposing legislative
changes to I.R.C. § 183. The proposal should include establishing a clearly defined standard or
bright-line rule for determining whether an activity is a business or a not-for-profit activity.
Due to the large number of these tax returns being prepared by tax practitioners, TIGTA also
recommended that the IRS continue to coordinate with practitioner organizations to encourage
compliance with existing provisions. IRS management agreed with the recommendations and
plans to take appropriate corrective actions.
Report Reference No. 2007-30-173

Delinquent Employment Taxes Owed by Government Entities
Although the IRS has enhanced its efforts to address delinquent employment taxes owed by
government entities in several areas, additional actions are still needed. Specifically, progress
in identifying and addressing the causes of delinquent employment taxes owed by government
entities has been limited. The IRS does not routinely track information regarding how these
cases are resolved or gather data on the causes of the delinquencies.

TIGTA’s review found that management information regarding Federal Government entity
cases was not sufficiently comprehensive to allow for effective oversight. It was difficult to
readily determine from available management information the exact receipt/assignment date or
current status of the Federal Government entity balance-due and delinquent-return cases. In
general, the conditions identified were attributable to a lack of comprehensive guidelines and
procedures for the assignment, control, and resolution of Federal Government entity cases.
TIGTA’s review of the inventory of Federal Government entity delinquent tax cases located at
one IRS campus indicated that as of December 2006, 99 entities owing $5.8 million had been
assigned for resolution for more than one year. The IRS lacked a viable methodology for
addressing aged Federal Government entity delinquencies.

TIGTA made several recommendations including: 1) developing a methodology for reporting
and sharing information regarding case resolution actions and causes of all Federal Government
entity delinquencies; 2) ensuring that comprehensive guidelines and procedures are developed
to guide the assignment, control, and resolution of Federal Government entity cases; and
3) continuing ongoing efforts to develop a process for resolving aged delinquent Federal entity
accounts. IRS management agreed with the recommendations and is taking corrective actions.
Report Reference No. 2007-10-166




 12
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                              Tax-Exempt Organizations
The IRS continues to face challenges in administering programs focused on tax-exempt
organizations to ensure that they comply with applicable laws and regulations to qualify for
tax-exempt status. While the IRS has noted that the nonprofit community has not been immune
to recent trends in bad corporate practices that have been highlighted in the for-profit area, it
has only recently begun to concentrate on this area since suffering a decline in staffing during
the late 1990s.

Screening of Tax-Exempt Organizations’ Filing Information
The IRS does not systemically match filing data of tax-exempt organizations against a
comprehensive list of potential terrorists to identify instances in which charitable and other
nonprofit organizations may be linked to terrorist activities. Instead, IRS employees manually
review all tax-exempt documents to compare information with a Department of the Treasury
terrorist watch list. This list was incomplete compared to the more comprehensive terrorist
watch list available for use by all Federal agencies. As a result of using a manual process and a
limited terrorist watch list, the IRS provides only minimal assurance that tax-exempt
organizations that are potentially involved in terrorist activities are identified.

TIGTA recommended that the IRS and its external stakeholders develop and implement a
long-term strategy to automate the matching of filing data of tax-exempt organizations against
a consolidated terrorist watch list to identify potential terrorist activities related to tax-exempt
organizations. The IRS should also evaluate whether using more comprehensive terrorist
watch lists, including any applicable Terrorist Screening Center information, in conjunction
with the Department of the Treasury terrorist watch list during the screening of tax-exempt
filing data, would improve its identification of organizations and/or individuals potentially
involved in terrorist-related activities. The IRS agreed with the recommendations and is taking
corrective actions.
Report Reference No. 2007-10-082


                    Security of the Internal Revenue Service
Millions of taxpayers entrust the IRS with sensitive financial and personal data stored in and
processed by IRS computer systems. Recent reports of identity theft from both the private and
public sectors have heightened awareness of the need to protect this data. The risks that
sensitive data or computer systems could be compromised and computer operations disrupted
continue to increase. Both internal factors, such as increased connectivity of computer systems
and increased use of portable laptop computers, and external factors, such as the volatile threat
environment related to increased terrorist and hacker activity, cause these risks.




                                                                                                  13
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Homeland Security Presidential Directive-12 Requirements
On August 27, 2004, President Bush signed the Homeland Security Presidential Directive-12
(HSPD-12), Policy for a Common Identification Standard for Federal Employees and
Contractors. The directive established a new standard for issuing and processing Federal
Government identification cards for entering Federal facilities and for accessing computer
systems. In the first compliance phase of HSPD-12, Personal Identity Verification (PIV) I, the
Office of Management and Budget (OMB) required agencies to develop procedures no later
than October 2005 for registering employees, issuing cards, and maintaining the card system.
In the second phase, PIV II, the OMB required agencies to demonstrate their ability to issue the
identification cards and be capable of issuing new cards to all new employees and contractors
no later than October 2006.

To satisfy the requirements of PIV I, the IRS completed its PIV I Procedures Manual on
October 27, 2005. This manual contains step-by-step instructions that address PIV I
requirements. However, the IRS has been experiencing delays in issuing new identification
cards to employees and contractors that enhance security, reduce identity fraud, and protect
their personal privacy.

Initially, the IRS attempted to produce its own identification cards but could not demonstrate
the ability to issue them. Despite assigning 68 employees and contractors to this effort, the IRS
had not yet purchased the hardware and software necessary to produce the identification cards
and did not expect to complete the program until September 2010, two years after the OMB
mandated deadline.

The IRS stated, however, that it met the PIV II milestone because it contracted with the General
Services Administration (GSA) for 100 identification cards to meet the OMB deadline, even
though it did not plan to use the GSA to issue additional identification cards after the PIV II
milestone. The GSA is making its solution available to all Federal agencies, and, due to
economies of scale, TIGTA believes that the GSA should be able to issue the cards less
expensively than agencies that produce their own cards.

TIGTA recommended that the IRS consider the benefits of using shared solutions, such as that
offered by the GSA for issuing identification cards to IRS employees and contractors. Rather
than spending resources on developing its own system, TIGTA recommended that the IRS
coordinate with the GSA to resolve concerns and customize the GSA solution to meet IRS
needs. IRS management agreed with the recommendation, and its HSPD-12 Program Office
discontinued development efforts for a Treasury Department-wide enterprise HSPD-12
solution. On May 18, 2007, a letter was issued to the GSA stating the IRS’ intention to use its
services to the extent possible.
Report Reference No. 2007-20-110




 14
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Noncompliance with Security Policies and Procedures
Using social engineering tactics, TIGTA determined that IRS employees, including managers,
are not complying with the rudimentary computer security practices for protecting their
passwords. TIGTA made 102 telephone calls to IRS employees, including managers and a
contractor, posing as a helpdesk representative seeking assistance to correct a network problem.
TIGTA was able to convince 61 employees (60 percent) to comply with the request. As a
result, the IRS is at risk of providing unauthorized individuals access to taxpayer data.

TIGTA reviews during FYs 2003 to 2007 have identified persistent computer security
weaknesses that jeopardize the security of personally identifiable information, and TIGTA
continues to find that employees are not aware of the security risks inherent in their positions.
It is clear that some IRS executives are not holding managers and employees accountable for
carrying out their responsibilities and for ensuring that managers and employees are aware of
these serious security risks.

TIGTA recommended that the IRS: 1) continue security awareness activities to remind
employees of the potential for social engineering attempts and the need to report these incidents
to its computer security organization; 2) conduct internal social engineering tests on a periodic
basis to increase employees’ security awareness and the need to protect usernames and
passwords; and 3) coordinate among business units to emphasize the need to discipline
employees for security violations resulting from negligence or carelessness. The IRS agreed
with these recommendations and has taken or agreed to take corrective actions.
Report Reference Nos. 2007-20-107 and 2007-20-117


              Providing Quality Taxpayer Service Operations
Since the 1990s, the IRS has been improving the quality of its customer service to taxpayers.
In fact, in its current strategic plan, the IRS’ first goal is to improve taxpayer service. The
Senate Committee on Appropriations has noted that the IRS lacks a concrete plan to provide
adequate alternative services to replace services proposed for reduction or elimination. In
response, the IRS developed a five-year Taxpayer Assistance Blueprint (TAB) that will help it
focus on providing appropriate types and amounts of service. TIGTA continues to identify the
need for improvement in taxpayer services provided through toll-free, face-to-face, and
electronic methods.

Taxpayer Assistance Blueprint
In July 2005, Congress requested that the IRS develop a five-year plan with an outline of which
services the IRS should provide and how it will improve services for taxpayers. In response,
the IRS developed the TAB to focus on services that support the needs of individual filers. The
objective is to effectively and efficiently align service content, delivery, and resources with



                                                                                                    15
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
taxpayer and partner expectations. TIGTA reviewed the Phase I report and is conducting a
review on the Phase II report to be issued in FY 2008.

                        The Phase I report identified strategic improvement themes by
                        researching IRS service relative to taxpayers’ needs and preferences.
                        TIGTA found that the majority of the information reviewed in the
                        Phase I report was accurate. Information found to be inaccurate and
                        inconsistent did not affect the IRS’ five strategic improvement themes,
                        which are common to organizations that aspire to deliver successful
                        customer service.

                       However, the types of problems found with the compilation of some of
                       the data could adversely affect IRS management decisions.
                       Management officials stated that they had taken actions to improve the
                       process for validating information included in the Phase II report.
Therefore, TIGTA made no recommendations but is testing the quality review process in the
review of the TAB Phase II report.
Report Reference No. 2007-40-078

Electronic Filing
Electronically filed tax returns increased in 2007. The largest increase came from taxpayers
filing online from home computers (11 percent). However, use of the Free File Program
declined, and the TeleFile Program has been discontinued.

The Free File Program allows taxpayers meeting certain income requirements to electronically
prepare and file their individual income tax returns free of charge. The IRS administers the
program as a partnership with a consortium of tax software companies. However, the usability
and marketing of the Free File Program need to be improved.

The IRS has not collected data about taxpayers who: 1) attempted to use the program but did
not or could not complete and file their tax returns; or 2) were eligible but did not use the
program. Of the 93 million taxpayers eligible for the program in CY 2006, only 4.2 percent
(3.9 million) used it. The IRS can also improve its administration of the program. The
program software did not always accurately compute the taxes due, and the “Guide Me To a
Company” feature that helps taxpayers select a program vendor was not always complete or
accurate.

TIGTA made several recommendations including developing a comprehensive plan to evaluate
and promote the Free File Program, and establishing a process to test the software used in the
program before the filing season to ensure that common tax scenarios are handled accurately.
The IRS agreed with most of the recommendations but did not agree to test the software used in
the program before the filing season because it would create a substantial challenge.
Report Reference No. 2007-40-105


 16
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
The TeleFile Program had allowed taxpayers to file their individual income tax returns for free
using the keypad on their telephone. The IRS discontinued TeleFile in 2005, citing increasing
costs and declining participation. TIGTA found that the IRS’ decision to discontinue TeleFile
was premature and created unnecessary taxpayer burden. Of the 2 million taxpayers who
would have remained eligible to TeleFile their income tax returns for free, TIGTA estimated
more than 541,000 taxpayers (29 percent) paid approximately $23.6 million to file their tax
returns in 2006. In addition, almost 966,000 taxpayers (48 percent) reverted to filing paper tax
returns, thus losing the benefits of faster refunds that electronic filing provides. These figures
do not include those taxpayers who would have become eligible to use TeleFile for the first
time in 2006.

TIGTA determined that the information the IRS used to support its decision to discontinue
TeleFile contained errors and was incomplete. Whatever actual cost savings were gained by
discontinuing the TeleFile Program, the result, in effect, was that the costs were shifted from
the IRS to taxpayers.
Report Reference No. 2007-40-116

Filing Season
The filing season is critical because it is during this time that most individuals file their income
tax returns and contact the IRS if they have questions about specific tax laws or filing
procedures. The 2007 Filing Season was especially demanding for the IRS due to high-profile
administrative changes, such as the Telephone Excise Tax Refund (TETR). The TETR was the
most wide-reaching tax refund in the history of the IRS, affecting an estimated 145 million to
165 million individual taxpayers, including many who normally would not file tax returns.
TIGTA’s audits of the 2007 Filing Season focused on two major areas: 1) the taxpayers’
experience; and 2) the processing of individual income tax returns.

2007 Filing Season Taxpayer Experience
TIGTA auditors used five scenarios and posed as taxpayers to obtain answers to tax law
questions and prepare tax returns using various IRS services. The auditors’ overall experiences
in obtaining answers to their tax law questions were positive, and they received good customer
service. Using the IRS Taxpayer Assistance Centers (TAC), the Toll-Free Telephone
Assistance Line, the TeleTax Line, and IRS.gov, auditors were generally able to find answers
to tax law questions and obtained correct answers for 50 (94 percent) of 53 questions.
Notwithstanding those examples, because of the complexity of the tax law, TAC assistors are
only authorized to answer questions within the specific tax topics for which they are trained.
These topics are not published on IRS.gov; therefore, taxpayers may unnecessarily need to
travel to TACs to ask their questions.

Experiences were mixed for tax return preparation assistance at TACs. Auditors were able to
prepare correct tax returns when using available tax forms, instructions, and publications, but
were not always able to obtain or create correctly prepared returns when using TACs and the


                                                                                                  17
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Free File Program. Of the 36 tax returns prepared, only 24 (67 percent) were prepared
correctly.

Additionally, the Volunteer Program plays an increasingly important role in the IRS’ tax return
preparation program. The IRS continues to move away from providing tax preparation
assistance at its TACs and is relying more on the Volunteer Program. The strength of this
program depends on partner organizations and their volunteers. TIGTA’s reviews over the last
four filing seasons have determined that the accuracy rates for tax returns prepared at Volunteer
Program sites continue to increase. Nevertheless, volunteers continue to not follow procedures
that assist in the accurate preparation of tax returns. To ensure the continued success of the
Volunteer Program, the IRS must focus its oversight on holding volunteers accountable.
Incorrectly prepared tax returns increase the risk of taxpayers receiving erroneous payments or
not receiving credits to which they are entitled.

The IRS provided taxpayers with effective access to its toll-free telephone system during the
2007 Filing Season. The IRS planned and met the 2007 Filing Season toll-free performance
measurement goals of 81.6 percent Level of Service and 258 seconds Average Speed of
Answer and provided taxpayers with effective access to its toll-free telephone system.5


                                     Overall Tax Return Accuracy Rates
                                      for the 2004-2007 Filing Seasons




                         Source: Tax returns prepared for TIGTA auditors by volunteers
                         for the 2004-2007 Filing Seasons



However, the quality and level of customer service for Spanish applications6 were lower than
those provided for English applications. The Average Speed of Answer was longer. Calls in
the Spanish applications were abandoned at a rate of 21 percent compared to 13 percent for the

5
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed
of Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
6
  The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to help taxpayers with specific tax issues.


    18
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
English applications. In addition, the accuracy of answers provided in the Spanish applications
was lower than that in the English applications.

The IRS provided taxpayers who called to speak to an assistor the option of hearing an
automated message about the TETR. However, after the recording ended, the call was ended.
TIGTA believes that callers should have been given the option to return to the main menu,
which is better taxpayer service and is common practice on customer service telephone lines.

TIGTA recommended several changes to improve taxpayers’ experience. IRS management
agreed with the recommendations and is taking corrective actions.
Report Reference Nos. 2007-40-164, 2007-40-137, and 2007-40-160

Processing Individual Income Tax Returns
The IRS generally had a successful 2007 Filing Season. Most key tax law changes were
implemented correctly, and the IRS completed processing returns and issued refunds in a
timely manner. Through June 1, 2007, the IRS had processed approximately 123.7 million
individual income tax returns, and issued approximately $223 billion in refunds to more than
99 million taxpayers. Of these refunds, 60 percent were directly deposited to taxpayer bank
accounts, an increase of 8 percent compared to 2006.

With some exceptions, the IRS successfully planned and implemented the TETR Program.
However, based on the refund claims processed through June 9, 2007, less than half of the $8
billion telephone excise tax collected had been refunded. TIGTA believes that two important
factors contributed to this condition: 1) the standard amounts developed by the IRS were used
by more taxpayers than expected; and 2) despite the IRS’ significant efforts to communicate the
TETR Program, many taxpayers simply did not know they could claim the refund.

Many erroneous claims for TETR, such as taxpayers claiming the total amounts of their
telephone bills rather than just the excise tax portion, were filed and were often unchallenged
by the IRS. The IRS did scrutinize some claims but only if the amounts claimed exceeded a
certain dollar threshold. The IRS’ rationale for looking only at claims above this dollar
threshold was its competing priorities for examination resources. TIGTA recommended that
the IRS explore all options at its disposal to address more inappropriate TETR claims,
including sending notices offering taxpayers the opportunity to self-correct their returns. If the
IRS had sent these notices to the more than 52,000 taxpayers included in TIGTA’s analysis
before the refunds were issued and if 50 percent of these taxpayers amended their claims, the
IRS could have avoided paying erroneous refunds totaling $23,377,443.

Taxpayers made only limited use of the Split Refund option, which allowed taxpayers the
option of electing to have their refunds split and electronically deposited into up to three
accounts, such as checking, savings, or Individual Retirement Arrangements (IRA). The IRS
had estimated that taxpayers would choose to split their refunds on approximately 3.8 million


                                                                                                19
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
returns this year. However, as of June 4, 2007, only 80,673 refunds were split, 0.1 percent of
all direct deposit refunds.

Taxpayers continued to claim improper IRA deductions. As of June 1, 2007, TIGTA had
identified 1,693 taxpayers over the age of 70½ who had improperly claimed more than $3.5
million in IRA deductions, resulting in estimated loss of tax revenue of over $530,000.

Many eligible taxpayers missed the opportunity to claim the sales tax deduction. TIGTA also
reported this issue for both the 2005 and 2006 Filing Seasons. Almost 2.1 million eligible
taxpayers failed to claim the sales tax deduction, a 50 percent increase over TY 2005. For the
three years that taxpayers could file amended tax returns, 4.6 million taxpayers may be entitled
to as much as $1.66 billion in tax refunds.

Taxpayers continued to claim a “dual benefit” of both the tuition and fees deduction and the
Education Credit. Taxpayers may not receive a dual benefit by taking both the tuition and fees
deduction and the Education Credit for the same student in the same year. During the 2007
Filing Season, TIGTA identified 8,493 single taxpayers claiming no dependents who had
claimed both the Education Credit and the tuition and fees deduction, resulting in an estimated
loss of tax revenue of more than $2.9 million. This is the fifth year in which TIGTA has
identified and reported this issue.

TIGTA made several recommendations, including: 1) identifying demographics that had
relatively low rates of TETR claims and providing additional information to these taxpayers on
how they might still claim the TETR; 2) revising the IRA worksheet and all related tax
instructions; 3) developing a communication strategy to inform taxpayers about the sales tax
deduction and clearly explain that taxpayers who were eligible to claim the sales tax deduction
but did not file amended returns; and 4) ensure that the new Tuition and Fees Deduction Form
is finalized prior to the start of the 2008 Filing Season and is required for all taxpayers claiming
the deduction for TY 2007. IRS management agreed with the recommendations and has
planned corrective actions.
Report Reference Nos. 2007-30-178 and 2007-40-187


                                Complexity of Tax Law
Simplicity, transparency, and ease of administration are interrelated and desirable features of a
tax system. Over the years, the Federal tax system, especially the Federal income tax, has
become more complex, less transparent, and subject to frequent revision. Tax system
complexity and frequent revisions to the Internal Revenue Code make it more difficult and
costly for taxpayers who want to comply to do so and for the IRS to explain and enforce the tax
laws. Tax law complexity results in higher costs for both tax administration and tax
compliance.



 20
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Like-Kind Exchanges
Under normal circumstances, when a taxpayer sells a business or investment property, tax must
be paid on the gain. A like-kind exchange allows an exception to payment of the capital gains
tax. As long as a property used for business or investment is replaced with a similar property,
no gain or loss is recognized at that time; rather, it is deferred until the eventual sale of the
replacement property. A taxpayer must report an exchange to the IRS on Like-Kind Exchanges
(Form 8824), which is filed with his or her tax return for the year during which the exchange
took place.

While the code is not explicit with respect to the requirement to file Form 8824 and there are
usually no penalties imposed if a taxpayer does not file the form, other sections of the code give
the IRS legal authority to require it. Some IRS forms, instructions, and publications do provide
taxpayers proper guidance with respect to a like-kind exchange and the requirement to file a
Form 8824. However, other IRS guidance needs revision to provide information regarding its
use. The IRS regulations for like-kind exchanges of second and vacation homes are complex,
and may be unclear to taxpayers. Although second and vacation homes used exclusively by
owners are not eligible for like-kind exchanges, the rules for like-kind exchanges of these
homes are complex, and the IRS has not published much guidance in this area. The absence of
clarification leaves without rebuttal the sales pitch of like-kind exchange promoters who may
encourage taxpayers to improperly claim deferral of capital gains through “tax-free” exchanges.

TIGTA recommended that the IRS conduct a study of issue-related returns selected by the
National Research Program. TIGTA also recommended that the IRS update some current
guidance regarding Form 8824 and provide additional guidance to taxpayers regarding the rules
and regulations governing like-kind exchanges of second and vacation homes that were not
used exclusively by owners. IRS management agreed with the recommendations and plans to
take corrective actions.
Report Reference No. 2007-30-172


  Using Performance and Financial Information for Program and
                       Budget Decisions
Reliable performance and financial information is critical to the IRS’ ability to accurately
report on the results of its operations to both internal and external stakeholders, including
taxpayers. Although the IRS has made some progress in using performance and financial
information for program and budget decisions, this area is still a major challenge. The IRS
cannot produce timely, accurate, and useful information needed for day-to-day decisions, which
inhibits its ability to address financial management and operational issues to fulfill its
responsibilities.




                                                                                               21
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Monitoring of Billings for Working Capital Fund Administrative Services
TIGTA found weaknesses in two critical areas related to the IRS’ monitoring of the
administrative services it receives from the Department of the Treasury Working Capital Fund.
First, the IRS did not subject its fund billings for actual costs incurred to any type of review for
accuracy or compare them to current-year estimated program expenditures for reasonableness.
Billings to the IRS for actual fund services totaled more than $100 million during the period of
October 2005 through June 2006. At the time of the review, the IRS had no procedures in
place requiring the review and certification of fund billings as accurate before they are entered
into its general ledger as valid expenses. Second, expense transactions relating to actual fund
expenditures were not always accurately recorded.

TIGTA’s review of a random sample of fund-related expenditures recorded in the IRS’ general
ledger during the period of October 2005 through June 2006 identified a number of instances in
which material financial transactions were misclassified. Similarly, fund program expenditures
were frequently allocated to obligations not directly related to the expenditures. In total, $34
million of the $97 million in charges TIGTA reviewed were misclassified. Inaccurate financial
management information compromises the ability of the IRS to readily monitor costs and
produce reliable accounting data.

Finally, the Department of the Treasury was unable to readily substantiate the need for more
than $60 million it accumulated from the IRS and held in the Working Capital Fund as of
December 2006. TIGTA shared this information with the Treasury Office of Inspector General
staff, which indicated that it will perform further detailed testing in this area.

TIGTA recommended that the IRS develop procedures requiring that Working Capital Fund
billings be reviewed and certified as accurate before being entered into IRS records as valid
expenses and request that the Department of the Treasury: 1) include additional information on
the fund billing statements to better facilitate the review and accurate recording of fund-related
transactions; 2) revise procedures to require that fund expenditures be allocated only to
obligations directly related to the expenditures; and 3) periodically review expenditures related
to the fund to ensure that the account classifications are consistent with the definitions of the
fund services being received. IRS management agreed with all of the recommendations and
has agreed to take adequate corrective actions.
Report Reference No. 2007-10-074


Validation of Taxpayer Service Savings Estimates for Fiscal Years 2006 and
2007
The IRS estimated that it would achieve more than $160 million in taxpayer service savings
from various reengineering and improvement projects and program efficiency initiatives to
support the decrease in funding for taxpayer service in FYs 2006 and 2007. Neither the
estimates nor the achievements could be validated.


 22
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
To support decreases in funding for FYs 2006 and 2007, the IRS’ Wage and Investment
Division estimated that it would achieve approximately $122 million and $47 million in
taxpayer service savings, respectively. The savings estimates for more than $146 million in
taxpayer service reengineering and program efficiencies initiatives were generally not
supported and could not be validated. The Wage and Investment Division had not adequately
documented the methodologies used to calculate the savings; had not created or maintained
source documentation (or ensured that all data provided were accurate or the most current
available); and had based some data on estimates and projections instead of actual data
currently available. In addition, the Wage and Investment Division Strategy and Finance
Office relied on other divisional offices and functions to provide the documentation.

TIGTA recommended that the IRS: 1) develop a thorough process for compiling the data used
for its budget requests to help ensure the accuracy of the estimates and to facilitate a better
understanding of the impact of budget reductions on operations; and 2) evaluate the extent to
which estimated savings are achieved and the impact on operations of savings that are not
achieved in order to assist in formulating future budget submissions and allocations. The IRS
agreed with the recommendations and has agreed to take corrective actions.
Report Reference No. 2007-40-125


                      Erroneous and Improper Payments
An improper payment is any payment that should not have been made or that was made in an
incorrect amount under a statutory, contractual, administrative, or other legally applicable
requirement. For the IRS, improper and erroneous payments generally involve improperly paid
refunds, tax return filing fraud, or overpayments to vendors or contractors.

Questionable Refund Program
The IRS estimates that fraudulent refund claims exceed $500 million a year. The Questionable
Refund Program (QRP), which was established to identify and prevent the issuance of
fraudulent refunds, received harsh criticism from the National Taxpayer Advocate as a program
that was inefficient and ineffective, and did not afford taxpayers their rights. The IRS re-
evaluated its processes and procedures to address the Taxpayer Advocate’s concerns.
However, TIGTA believes that several of these changes may adversely affect the IRS’ ability
to prevent the issuance of millions of dollars in potentially fraudulent refunds.
The IRS did not adequately respond to various warning signs that the QRP was facing
problems and becoming unmanageable. For Processing Year (PY) 2006, the Criminal
Investigation (CI) function discontinued freezing the subsequent year’s return and started
notifying taxpayers that their refunds had been delayed. TIGTA found that these freezes could
be effective if they had been implemented correctly and reviewed in a timely manner. In PY
2005, these freezes could have prevented the issuance of over 20,000 fraudulent refunds
totaling $71.7 million.


                                                                                              23
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
The IRS needs to be more aggressive in the criminal and civil pursuit of fraudulent refunds.
During 2004, the CI function identified over 3,000 schemes involving nearly 118,000 returns
claiming almost $425 million in fraudulent refunds. However, as of March 2006, criminal
investigations had been opened on only 172 schemes involving $59 million in refunds.
Furthermore, the IRS did not always take civil actions to adjust fraudulent refund accounts or
recover fraudulent refunds that had been issued. Had the IRS taken civil action on earlier
fraudulent returns, it could have collected $27.5 million from future refunds.

TIGTA made several recommendations, including that the IRS: 1) reconsider placing a freeze
on the subsequent year’s returns identified as fraudulent; 2) revalidate the optimal time needed
to release a freeze; 3) consider lowering the tolerance for sending cases to the Examination
function; and 4) reconsider the decision to exclude certain types of returns from the screening
process. The IRS agreed with most of the recommendations and agreed to take corrective
actions.
Report Reference No. 2007-10-076




 24
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                Protect the Integrity of Tax
                      Administration

T
       IGTA’s Office of Investigations (OI) helps protect the ability of the IRS to collect
       revenue for the Federal Government. To accomplish this mission, OI investigates
       allegations of criminal violations and serious administrative misconduct by IRS
employees, threats and assaults against IRS employees and infrastructure, and external attempts
to corrupt tax administration.

TIGTA’s investigative mission goes far beyond that of most Offices of Inspector General. In
addition to focusing on fraud, waste, and abuse within the IRS, TIGTA is statutorily
responsible for protecting the integrity of tax administration. To achieve this broad mandate,
OI performs a variety of functions, including:

   •   Investigating allegations of criminal violations that impact Federal tax administration
       and serious administrative misconduct by IRS employees;
   •   Conducting proactive investigative initiatives to detect criminal and administrative
       misconduct in the administration of IRS programs;
   •   Conducting integrity and fraud awareness presentations for IRS employees and others,
       such as tax practitioners and community groups;
   •   Investigating assaults and threats made
       against IRS employees, facilities, and
                                                                IIN
                                                                  NVVEESSTTIIG
                                                                             GAATTIIVVEE C
                                                                                         CAASSEE
       information systems;
                                                                      D
                                                                      DIISSTTRRIIB
                                                                                 BUUTTIIO
                                                                                        ONN
   •   Investigating fraud, waste, and abuse
                                                                    20%
       involving IRS procurements;
   •   Operating a national complaint center,
       including a hotline and Web site, to                                                     54%
       process complaints of fraud, waste, abuse,              26%

       and misconduct involving IRS employees
       and programs;                                             Employee Integrity
   •   Operating a Criminal Intelligence                         Employee & Infrastructure Security
       Program to manage and coordinate threat
                                                                 External Attempts to Corrupt Tax
       information that could impact the security                Administration
       of IRS employees and functions;
   •   Conducting forensic examinations of
       physical and electronic evidence to support investigations;
   •   Operating the Treasury-wide land mobile radio program; and




                                                                                                  25
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
      TTIIG
          GTTA
             A’’S
                S IIN
                    NVVE
                       ESSTTIIG
                              GAATTIIV
                                     VEEP
                                        PEER
                                           RFFO
                                              ORRM
                                                 MAAN
                                                    NC EM
                                                      CE MO
                                                          ODDE
                                                             ELL


                                                                  Criminal &
                                                                Administrative
                                                                Investigations




                                                                 Employee
                                                                  Integrity


                                               Integrity                         Complaints
                                               Program                           Processed




                         Bribery                                                                          Threat & Assault
                     (Non-Employee)                                                                        Investigations
                                                           TIGTA INVESTIGATIONS




                        External                                                                           Employee &
                        Attempts
                     To Corrupt Tax                                                                       Infrastructure
                     Administration                                                                          Security


  Manipulation/                                                                           Threat
                                      Fraud & Other                                                                          Computer Intrusion
 Corruption of IRS                                                                    Assessments &
                                      Nexus-Related                                                                           Security Systems
     Systems                                                                        Security Advisories
                                         Crimes




       TIGTA’s Office of Investigations bases its performance measures on three
       primary areas of investigation: employee integrity; employee and
       infrastructure security; and external attempts to corrupt tax administration.
       Each of these three areas is subdivided into three categories, all designed to
       support the agency’s law enforcement goals.




26
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
   •   Using technical and investigative support equipment, training, and specialized services
       to enhance operations.

OI’s strategy for ensuring employee integrity, employee and infrastructure security, and
protecting the IRS against external attempts to corrupt tax administration is to position TIGTA
special agents throughout the United States who are focused on high-impact investigations that
protect the ability of the IRS to collect the nation’s tax revenue.


                               Employee Integrity
IRS employee misconduct undermines the IRS’ ability to deliver taxpayer service, enforce tax
laws effectively, and collect the proper amount of taxes owed. TIGTA investigates employee
misconduct allegations including extortion, bribery, theft, taxpayer abuses, false statements,
and financial fraud, as well as contractor misconduct and fraud. During the reporting period,
TIGTA completed 1,078 employee integrity investigations.

As an integral part of its employee integrity program, TIGTA’s Strategic Enforcement Division
(SED) conducts proactive integrity initiatives designed to uncover fraud in IRS operations and
to identify internal control weaknesses that may have permitted the fraud to go undetected or
unreported. SED uses a variety of audit trail and forensic data analysis tools to proactively
identify potential unauthorized access to taxpayer information by IRS employees. Investigative
leads that SED developed are currently substantiated as actual UNAX violations more than 81
percent of the time. In this reporting period, OI closed 335 UNAX investigations, of which 17
cases resulted in criminal prosecutions, and 324 cases resulted in adverse disciplinary action
against IRS employees.

The following cases are examples of IRS employee integrity investigations TIGTA conducted
during this reporting period.

Former IRS Employee Sentenced for Wire Fraud
On July 24, 2007, the U.S. District Court for the District of Massachusetts sentenced Robert P.
Dooley to a prison term of 60 months, 36 months of supervised release, restitution in the
amount of $335,665.75, and an assessment of $1,200. Dooley was sentenced after pleading
guilty on April 13, 2007, to 12 counts of wire fraud.

According to court documents, Dooley engaged in a scheme to defraud Home Depot, Inc.,
which operates a chain of retail home improvement stores throughout the United States.
Dooley was employed as a clerk at the IRS Andover Campus in Andover, Massachusetts, from
about February 25, 2001, to about September 13, 2002. In connection with Dooley’s
employment, he was issued an identification badge. As part of Dooley’s scheme, he
fraudulently obtained Home Depot store credit by taking items from a Home Depot store


                                                                                              27
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
without purchasing them. Dooley would then take the items to the return desk at a Home
Depot store and falsely claim that he had purchased the items but did not have a receipt.
Dooley utilized his IRS identification badge as proof of his identity and, at times, made claims
                                                  that he was trustworthy because he worked for
                                                  the IRS. Dooley would receive store credit in
    TTIIG
        GTTA
           A’’SS O
                 OPPEER
                      RAATTIIO
                             ONNSS D
                                   DIIV
                                      VIISSIIO
                                             ONN  the amount of the “returned” items, and he
                                                  would sell or barter the fraudulently obtained
      The Operations Division of OI is            store credits at a reduced price to other
      responsible for program and policy
                                                  individuals.
      development and oversight by
      delivering products and services to
      field and headquarters divisions, OI       Between about May 2002 and October 2005,
      executives, and the Inspector              Dooley executed this scheme at
      General. Five distinct teams               Home Depot stores in Massachusetts, New
      constitute the Operations Division:        Hampshire, Maine, Vermont, Rhode Island,
      Complaint Management Team; Data            Connecticut, New York, Texas, and
      Analysis Team; Inspection Team;            Oklahoma. During the period of July 2004
      Policy Team; and Training Team.            through October 2005, Dooley defrauded
      Operations Division responsibilities       Home Depot of an amount in excess of
      include:                                   $330,000.
      •    Development of investigative
           policy and procedures;                Individual Sentenced for
      •    Preparation of reports and briefing   Unauthorized Access to Computer
           documents for internal and            On April 2, 2007, Patricia Kraft was
           external customers;                   sentenced in the U.S. District Court, Eastern
      •    Preparation of responses to           District of California, for tampering with a
           congressional inquiries;              witness and unauthorized access to a
      •    Data and trend analysis;              computer. She was sentenced to 36 months of
      •    Preparation and oversight of OI’s
           budget;
                                                 probation with the special conditions that she
      •    Development and coordination of       must complete 200 hours of unpaid
           OI training;                          community service and 180 consecutive days
      •    Complaints processing and             of home detention. She was also ordered to
           records management; and               pay a $750 fine and a $125 assessment.
      •    Internal review of OI’s field and
           headquarters operations.               According to court documents, Kraft, who
                                                  was employed by the IRS at the time,
                                                  intentionally exceeded her authorized access
to the IRS Integrated Data Retrieval System and obtained tax return information from a tax
account of a taxpayer with whom she had a personal relationship. Kraft also attempted to offer
to forgive a $200 debt owed to her by a family friend if the friend would falsely tell law
enforcement agents that he had requested previously filed Forms W-2 and other documents
from IRS employees, when he had not done so. Kraft did this with the intent to prevent the
communication of information regarding unauthorized access to a computer to a law
enforcement officer.


 28
          TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Individual Sentenced for Disclosing Confidential Information
After pleading guilty on January 22, 2007, to one count of Disclosing Confidential Information,
Robert M. Golub was sentenced on May 8, 2007, to one year of supervised probation, ordered
to pay a fine of $3,450 and a special assessment of $25, and to participate in mental health
treatment.

Golub was employed as an IRS revenue agent and, as part of his duties, had access to a
database known as the Currency and Banking Retrieval System (CBRS) which is maintained
by the Department of the Treasury. The CBRS contains information collected by financial
institutions pursuant to the reporting authority of the Bank Secrecy Act. While working at the
IRS, Golub, without authorization, used his U.S. Government password to electronically
examine and access from the CBRS confidential information concerning several private
individuals and a business entity. Golub also intentionally disclosed some of the confidential
information he obtained from the CBRS to individuals outside the IRS.

Individual Sentenced after Pleading Guilty to Unauthorized Inspection of
Return or Return Information
On June 14, 2007, Ellen McCall was sentenced by the U.S. District Court, Northern District of
Texas, to 18 months of probation, a $500 fine, and an assessment of $25. On March 6, 2007,
McCall pleaded guilty to the unauthorized inspection of return or return information.

According to court documents, on August 19, 2005, McCall, who was employed by the IRS at
the time, willfully and without authorization accessed and inspected the return or return
information of a private individual.

IRS Employee Sentenced After Pleading Guilty to the Unauthorized Inspection
of Return or Return Information
On June 22, 2007, Eric Sanchez was sentenced in the U.S. District Court for the Northern
District of Texas to probation for a term of two years, ordered to participate in mental health
treatment as directed by his probation officer, file all outstanding tax returns, and pay all
outstanding taxes, interest, and penalties. Sanchez was also assessed a $25 criminal monetary
penalty. Sanchez was sentenced after previously pleading guilty to willfully and without
authorization, accessing and inspecting the return or return information of a private individual.

According to court documents, on June 4, 2004, Sanchez, who was an employee of the IRS,
knowingly and without authorization accessed tax return information in the IRS’ Integrated
Data Retrieval System concerning the ex-husband of an individual with whom Sanchez had a
personal relationship. Sanchez obtained and inspected the ex-husband’s tax return information,
including his return filing history.




                                                                                                29
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Kevin Lackland Sentenced for Theft of IRS Computer Equipment
On July 30, 2007, Kevin Lackland was sentenced by the U.S. District Court for the District of
Maryland to a term of five years probation, restitution of $10,930, and a special assessment of
$100.

According to a Department of Justice press release, Lackland, who began work as an
information technology specialist with the IRS on December 29, 2003, pleaded guilty to theft
of computer equipment belonging to the IRS. The equipment, which included computers, hard
drives, and monitors, was valued at $20,647. Lackland used eBay.com to sell much of the
computer equipment he stole from the IRS. Some of the stolen equipment was recovered in
Lackland’s home.

Individual Sentenced for Possession of Controlled Substance
On July 11, 2007, Victoria Marshall was sentenced to 30 days of home detention, 12 months of
probation, a $1,000 fine, and a $25 special assessment by the U.S. District Court for the Eastern
District of California. Marshall was sentenced after pleading guilty to possession of a
controlled substance on April 12, 2007.

According to court documents, on August 10, 2005, Marshall, an IRS employee at the time,
knowingly possessed methamphetamine stored in a glass vial tube and three small baggies.
Testing of the glass vial tube and one of the bags identified 0.40 grams and 1.53 grams of
methamphetamine in the vial and bag, respectively.

IRS Employee Indicted for Falsifying Information about Work Completed
On May 15, 2007, IRS employee Maulik B. Desai was indicted in the U.S. District Court,
Southern District of Ohio, on one count of wire fraud and eight counts of making or signing
fraudulent entries or statements in IRS records by knowingly falsifying examination or audit
activities while working as a revenue agent. Specifically, Desai made or signed fraudulent
entries regarding telephone communications, work activities, travel, and meetings with respect
to examinations or audits that Desai had been assigned to carry out regarding certain taxpayers.


               Employee and Infrastructure Security
The IRS collects approximately $2 trillion in revenue annually for the Federal Government.
Recognizing the vital nature of the IRS’ responsibility, Congress directed TIGTA to protect
the IRS from external threats. TIGTA accomplishes this mandate through the identification
and investigation of potential and real threats to IRS employees, facilities, and data
infrastructure. TIGTA protects the IRS’ ability to collect tax revenue by ensuring IRS
employee safety and infrastructure security.




 30
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     A
                     ASSSSA
                          AUULLTT &
                                  & TTH
                                      HRREEA
                                           ATT IIN
                                                 NVVEESSTTIIG
                                                            GAATTIIO
                                                                   ONNSS

TIGTA is statutorily charged with protecting the integrity of the IRS and its operations.
In March 1972, TIGTA (through its predecessor organization) assumed primary
jurisdiction for investigating threats, assaults, and forcible interference against IRS
personnel. In a general sense, assaults and threats against IRS personnel undermine
the IRS’ ability to collect the nation’s tax revenue. Because each specific assault or
threat involves potential violence, the investigation of employee assaults has always
remained a top priority for TIGTA.

In response to the terrorist attacks on September 11, 2001, TIGTA’s commitment to
employee and infrastructure security includes the operation of a headquarters-level
Criminal Intelligence Program (CIP) to coordinate the agency’s investigation of threats,
assaults, and terrorist acts targeted at the IRS. In an effort to protect the IRS, TIGTA’s
CIP utilizes information from a variety of sources to identify and preempt threats,
assaults, and violent acts targeted against IRS facilities, employees, and operations. In
addition, TIGTA participates in the Federal Bureau of Investigation’s Joint Terrorism
Task Forces throughout the country and assists the IRS with enhancing its employee
safety and infrastructure security programs.

During this reporting period, TIGTA completed 180 investigations of threats and assaults
directed at the IRS and its employees, and initiated 294 advisories notifying IRS
management of potential threats.

The following cases are examples of assault and threat investigations conducted
during this reporting period.

                  Todd Schulze Sentenced for Making Threat to IRS

On April 23, 2007, Todd W. Schulze was sentenced to one month in a residential re-
entry center, a one-year term of probation, and charged a $25 assessment penalty by
the U.S. District Court, Western District of Wisconsin, after pleading guilty to one count
of attempting to interfere with the administration of internal revenue laws. According to
court documents, Schulze was audited by the IRS and was assessed delinquent taxes
with interest and penalties in the amount of $3,653.02 for Tax Year 2003 and $2,726.89
for Tax Year 2004. On October 4, 2006, Schulze was contacted by telephone by an IRS
representative regarding the amount he owed to the IRS. During the recorded
conversation, Schulze stated to the IRS representative: “I’m a little concerned about this
because this is strictly a matter where you want to call to seize my account, and if you
do that, I’ll start killing people, and you can record that.” On October 6, 2006, Schulze
was arrested by TIGTA special agents.




                                                                                             31
   TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                    Ka’munja Lockett Charged in Assault of IRS Employee

    On April 16, 2007, a criminal complaint was filed in the U.S. District Court, Southern
    District of Texas, charging Ka’munja R. Lockett with assault of an employee of the United
    States. According to the complaint, Lockett went into the IRS walk-in Taxpayer
    Assistance Center in Houston, Texas. When she went to the front desk, she told an IRS
    employee, “I’m tired of y’all stealing my money. You’re going to fix this.” She slammed a
    book and documents on the desk and said, “I’m sick of this.” Lockett then picked up a
    chair and threw it, hitting a customer and causing minor injuries. She then threw a second
    chair at an IRS employee. Lockett was eventually apprehended by Federal Protective
    Service officers who relinquished custody of Lockett to TIGTA. Two IRS employees
    sustained injuries as a result of the incident.




      External Attempts to Corrupt Tax Administration
TIGTA is dedicated to investigating external attempts to corrupt or interfere with the
administration of internal revenue laws. Examples of these attempts include bribes offered by
taxpayers to compromise IRS employees, the use of fraudulent IRS documentation to commit
crimes, impersonation of IRS officials, and the corruption of IRS programs through
procurement fraud. External attempts to corrupt tax administration impede the IRS’ ability to
collect revenue.

Due to the increased frequency and complexity of electronic crimes in the United States,
TIGTA considers major IRS programs to be highly at risk. Particularly important to TIGTA
are phishing schemes that falsely depict e-mails from the IRS. These schemes often involve
sending e-mails to users falsely claiming to be established, legitimate enterprises to solicit
private information for identity theft. Such schemes attempt to retrieve a user’s Social Security
number and banking information by replicating an official IRS seal and/or requesting
information required for depositing tax refunds. Phishing schemes may also involve
impersonation of the IRS Web site in an effort to obtain sensitive taxpayer information. From
November 2005 to September 30, 2007, TIGTA and the IRS received a total of 32,576
complaints or inquiries regarding these Internet schemes. Oversight of this area is necessary to
ensure that misuse of the IRS name, impersonation of an IRS employee, and identity theft
incidents are resolved properly.




 32
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
The following cases are examples of investigations of external attempts to corrupt tax
administration conducted during this reporting period.

Individual Sentenced for Embezzling Client’s Federal Tax Payments
On June 28, 2007, Stephen E. Taylor was sentenced by the U.S. District Court, Northern
District of Georgia, to 78 months of imprisonment and three years of supervised release, and
was ordered to make restitution in the amount of $4,174,144.61 and pay a special assessment of
$100. Taylor was sentenced after previously pleading guilty to wire fraud on April 18, 2007.

According to court documents, in February 2005, Taylor, who was the president of 20/20
Payroll Solutions, began diverting funds from the company’s payroll account to pay for
personal expenses and invest in real estate. The payroll account was established by the
company to receive its clients’ payroll and tax payments. The funds were supposed to be used
to make Federal and State tax payments on behalf of 20/20 Payroll Solutions’ clients.

As a result of Taylor’s diversion of company money, the company was unable to pay its
clients’ Federal tax liabilities on a timely basis, even though it had already collected the amount
due from its clients.

Antonino Giuliano Sentenced for Stealing Federal Income Tax Refunds
On April 13, 2007, Antonino Giuliano was sentenced in the U.S. District Court, Middle District
of Florida, Orlando Division, on one count of mail fraud and one count of theft of U.S.
Government property. He was sentenced to nine years in prison on each count to run
concurrently, three years of supervised release, 150 hours of community service, a special
assessment of $200, and restitution of $330,477.

According to court documents, Giuliano prepared tax returns for three individuals for Calendar
Year 2004. Giuliano provided copies of the tax returns to two of the individuals showing
balances due when, in fact, the IRS issued refunds for the individuals that were deposited into
Giuliano’s bank account. Giuliano falsely advised one individual that the IRS was not issuing
the tax refund when Giuliano had already received it. During 2005 and 2006, Giuliano advised
one of his clients that she was being audited by the IRS and that he was representing her.
Giuliano induced his client to send him payments of $1,233, $1,974, and $1,050, telling her
that the payments would be forwarded to the IRS to keep interest and penalties from accruing.
The client was not being audited by the IRS and did not owe any money to the IRS.

Harry Kyllo Sentenced After Pleading Guilty to Stealing Clients’ Tax
Remittances
On May 23, 2007, Harry Kyllo was sentenced in the U.S. District Court, District of Oregon, to
a term of 51 months of imprisonment, $1,322,582 in restitution, and three years of supervised




                                                                                                33
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
release upon his release from prison, after he pleaded guilty to mail fraud, attempting to defeat
the payment of tax, and impersonation.

According to court documents, beginning about 2000 and continuing to about September 30,
2005, Kyllo prepared Federal and State income tax returns for a number of clients that reflected
taxes due. The clients signed these returns and paid Kyllo the funds to pay the taxes due.
Kyllo never filed the returns, and he did not pay the money to the IRS. On several occasions,
after the IRS notified his clients that their returns had not been filed, Kyllo created letters
purportedly from the IRS indicating that the problem had been resolved. He sent these letters
to his clients using the U.S. Postal Service.

Evette Merritt Sentenced for Stealing Clients’ Tax Refund Checks
On April 27, 2007, Evette Merritt was sentenced to 10 months of incarceration, three years of
supervised release upon the completion of her prison term, and was ordered to make restitution,
and pay a special assessment of $200. Merritt was also ordered to register with the self-
exclusion lists maintained by the New Jersey Casino Control Commission and Racetrack
Commission and, at the discretion of the U.S. Probation Office, to attend Gamblers
Anonymous or a similar organization. Merritt was sentenced after pleading guilty on October
31, 2006, to one count of theft and one count of conspiracy.

The indictment alleged that from January 15, 2002, to March 20, 2003, Merritt conspired with
another individual to solicit taxpayers to prepare their tax returns in exchange for a fee. Merritt
forged signatures and filed the tax returns on behalf of her clients in which she falsely and
fraudulently claimed that the taxpayers authorized their refund checks to be deposited into bank
accounts controlled by Merritt and her co-conspirator. Merritt and her co-conspirator then
converted the funds obtained from the scheme to their own use.

Individual Sentenced for Misuse of Treasury Names and Symbols
On July 23, 2007, Angelo M. Vitale was sentenced by the U.S. District Court for the Eastern
District of California to 12 months of probation, a fine in the amount of $500, and a special
assessment of $25. Vitale pleaded guilty on April 5, 2007, to one count of misuse of
Department of the Treasury names and symbols.

According to court documents, on or about April 13, 2006, Vitale contacted an individual and
solicited his financial participation in a real estate venture. Vitale told the individual that he
planned to purchase a distressed property from a bank. Vitale also told the individual that the
property had an IRS tax lien that needed to be cleared before the property could be purchased
and that Vitale had negotiated a settlement with the IRS to clear the lien.

In support of these statements, Vitale provided the individual with a letter that purported to be
from the Department of the Treasury, Internal Revenue Service. Based on the letter fabricated



 34
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
by Vitale and equally phony letters purporting to be from the bank and another company, the
individual paid Vitale $5,000 as an investment in the property.

Individual Indicted for Bribery of IRS Revenue Officer
On April 4, 2007, Jeffrey N. Darr was indicted in the U.S. District Court for the Central District
of Illinois, on two counts of bribery.

According to the indictment, on or about November 21, 2006, Darr corruptly offered and
promised to give money to an IRS revenue officer, with the intent to induce the revenue officer
to both do and omit to do an act. On or about December 7, 2006, Darr corruptly gave money to
an IRS revenue officer, with that intent.

Individual Pleads Guilty to Attempting to Interfere with Administration of
Internal Revenue Laws
On June 27, 2007, Larry Canoso pleaded guilty in the U.S. District Court, District of Utah, to
attempting to interfere with the administration of internal revenue laws.

According to the plea agreement, on November 13, 2003, Canoso caused a lien release in the
amount of $47,149 to be filed at the Salt Lake County Recorder’s Office. The IRS filed the
lien as a result of taxes due and owed for the year of 1995. This release was not official and
was not a duly executed document of the IRS.




                             PPR
                               ROOC
                                  CUUR
                                     REEM
                                        MEEN
                                           NTT FFR
                                                 RAAU
                                                    UDD PPR
                                                          ROOG
                                                             GRRA
                                                                AMM

      The combined value of active IRS procurements, including each contract’s base and
      option years, is approximately $61 billion. The Procurement Fraud Section (PFS) within
      TIGTA’s Special Inquiries and Intelligence Division (SIID) is dedicated to identifying and
      investigating procurement fraud involving the IRS. The PFS achieves its goals through:
      proactive and reactive investigations; fraud awareness presentations; proactive
      investigative initiatives; data analyses; and liaisons. These activities, while labor-
      intensive, relate directly to TIGTA’s core mission of preventing external attempts to
      corrupt the IRS’ ability to effectively administer the tax laws.

     During this reporting period, PFS investigations have resulted in more than $16 million
     in recoveries, and PFS has given 14 fraud awareness presentations to 390 individuals.

     The following cases are examples of procurement fraud investigations
     conducted during this reporting period.




                                                                                                 35
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
               PPR
                 ROOC
                    CUUR
                       REEM
                          MEEN
                             NTT FFR
                                   RAAU
                                      UDD PPR
                                            ROOG
                                               GRRA
                                                  AMM ((C
                                                        COON
                                                           NTTIIN
                                                                NUUEED
                                                                     D))

 Mellon Bank Agrees to Pay $16.5 Million for Destruction of Tax Returns and
 Checks

 On June 28, 2007, Mellon Bank, N.A., reached a settlement agreement with the
 Department of Justice in which Mellon Bank agreed to pay $16.5 million to the United
 States to avoid potential litigation under the False Claims Act.

 According to court documents, Mellon Bank, under agreement with the Department of
 the Treasury, maintained a lockbox address in Pittsburgh, Pennsylvania, to take delivery
 of and process tax return forms, documents, and payments sent by individual taxpayers
 residing within the geographical area served by the IRS Service Center in Andover,
 Massachusetts. Mellon Bank was responsible for opening the incoming mail directed to
 its Pittsburgh lockbox operation, separating tax returns from the vouchers and
 payments, processing payments and vouchers, depositing checks from taxpayers into a
 depository clearing account for subsequent transfer to the U.S. Treasury, and
 forwarding the tax returns to the IRS in Andover.

 Mellon Bank was also required to process IRS tax forms, vouchers, and payments
 within certain deadlines. In a letter dated December 15, 2000, to Mellon Bank, the IRS
 established April 29, 2001, as the “Program Completion Date” – the date by which all
 checks received by the lockbox site between April 15, 2001, and April 28, 2001, were to
 be processed. On April 29, 2001, a Mellon Bank vice president notified the IRS that
 Mellon Bank had “completed the 2001 April tax program.” However, in fact, Mellon
 Bank had not processed all of the IRS submissions received by April 28, 2001, and
 Mellon Bank never met the April 29, 2001, tax processing deadline. Instead, Mellon
 Bank employees ultimately destroyed tens of thousands of tax returns, vouchers, and
 checks that Mellon Bank possessed as an agent of the United States after having
 received them from taxpayers, all in an effort to deceive the IRS about the bank’s failure
 to complete the 2001 tax program on a timely basis.




36
     TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
               PPR
                 ROOC
                    CUUR
                       REEM
                          MEEN
                             NTT FFR
                                   RAAU
                                      UDD PPR
                                            ROOG
                                               GRRA
                                                  AMM ((C
                                                        COON
                                                           NTTIIN
                                                                NUUEED
                                                                     D))

Individual Sentenced after Pleading Guilty to Conspiracy to Defraud the United
States and Obstruction of Federal Audit

On September 25, 2007, Ketan R. Shah of Public Affairs International, Inc. (PAI), was
sentenced in the U.S. District Court for the District of Maryland, to a prison term of 30
months, three years of supervised released upon the completion of his prison term,
restitution in the amount of $1,379,639, and a $200 special assessment. Shah was
sentenced after pleading guilty on June 12, 2007, to conspiracy to defraud the United
States and obstruction of a Federal audit.

According to court documents, the IRS awarded a contract to PAI to plan, coordinate and
manage seminars called “Tax Forums” on behalf of the IRS. The purpose of these
events was to educate tax preparation professionals about changes in tax laws, forms,
and procedures. Under the contract, PAI was empowered to make all arrangements for
the seminars, to charge attendance fees, make payments to vendors who provided
services related to the seminars, and to charge organizations that wished to set up
displays at the seminars.

Under the contract, PAI received a management fee from the IRS as compensation for
its services. This fee was paid each year by the IRS and was supposed to be reduced
by the amount of profits, if any, that PAI earned by operating the seminars.

During contract years 2000 through 2003, Shah, who was the vice president of PAI,
conspired with others against the IRS to intentionally understate income and overstate
expenses related to the seminars. If PAI had accurately reported its income and
expenses to the IRS, the earnings from the seminars would have completely offset PAI’s
management fee, and PAI would not have been entitled to any management fee during
the years 2000 through 2003. However, as a result of PAI’s misstatements, the IRS paid
management fees totaling approximately $1,379,630 to PAI from 2000 through 2003.

In October 2003, TIGTA’s Office of Audit initiated an audit of PAI’s records relating to the
contract. Pursuant to that audit, TIGTA issued a subpoena to PAI for the production of
documents relating to PAI’s earnings and expenses under the contract. In response to
the subpoena, Shah and others directed PAI employees to alter or manufacture invoices
from vendors to increase PAI’s apparent expenses, and to remove participant names
from the seminar lists, thereby reducing PAI’s apparent income. Further, Shah and
others intentionally failed to provide certain documents requested in the subpoena.




                                                                                               37
   TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
Anthony DiNapoli Sentenced after Pleading Guilty to False Impersonation of a
United States Government Employee
Anthony DiNapoli was sentenced on June 22, 2007, in the U.S. District Court for the District of
Massachusetts, to 24 months of probation and a special assessment of $100. DiNapoli was
sentenced after previously pleading guilty to falsely impersonating a U.S. Government
employee.

According to court documents, on or about and between February 22, 2005, and February 23,
2005, DiNapoli pretended to be a U.S. Government employee in order to demand that another
individual dismiss a civil suit.



              TTIIG
                  GTTA
                     A’’SS SSPPEEC
                                 CIIA
                                    ALL IIN
                                          NQQU
                                             UIIR
                                                RIIEESS A
                                                        ANND
                                                           D IIN
                                                               NTTEELLLLIIG
                                                                          GEEN
                                                                             NCCEE D
                                                                                   DIIVVIISSIIO
                                                                                              ONN

   The Special Inquiries and Intelligence Division is responsible for three distinct missions.
   SIID is responsible for conducting sensitive investigations involving TIGTA employees,
   IRS Oversight Board members, IRS Senior Executives (Grade 15 and above), IRS Chief
   Counsel employees, IRS Criminal Investigation employees and IRS International
   employees located in Washington, D.C., and U.S. embassies abroad. SIID is also
   responsible for investigating allegations of fraud, waste, and abuse involving IRS
   procurements and procurement-related misconduct by IRS employees and persons
   outside of the agency. Third, SIID is responsible for coordinating all criminal intelligence
   collection and dissemination within TIGTA nationwide.




 38
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                              B
                              BAAD
                                 DGGE
                                    ESSO
                                       OFF TTIIG
                                               GTTA
                                                  A




The badges displayed above represent the only three official badges worn by special
agents of the Treasury Inspector General for Tax Administration, and their
predecessors, the inspectors of the IRS’ Internal Security Division.

In its early years, the Intelligence Unit of the Bureau of Internal Revenue authorized its
special agents to carry a gold-plated, circular shield. These special agents were the
forerunners of today’s special agents of TIGTA and the IRS Criminal Investigation
Division. The circular shield, issued from the early 1920s until 1939, gave way to a
similar shield plated in silver.

By 1949, the Intelligence Unit could not supply all the members of its growing ranks with
the circular shield. Special agents were allowed to order their own badges from a
private manufacturer and carry them as official identification. This led to the first use of
the starburst design, similar to the badges worn by New York City police officers.

While the Inspection Service was created on October 1, 1951, it was not until 1954 that
inspectors received their first officially-issued badges. This badge, shown on the left
featured a nine-point starburst design. Each badge bore a number representing the
inspector to whom it was assigned.

In 1969, the starburst badge was redesigned. The newly created badge, depicted in the
center, was used by all inspectors assigned to the Internal Security Division.

In 1998, Congress passed the IRS Restructuring and Reform Act, which transferred the
Inspection Service assets and mission to TIGTA. In 1999, TIGTA issued its first badge,
depicted on the right, which is issued to all special agents assigned to the Office of
Investigations.




                                                                                               39
   TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
40
     TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                           Congressional
                            Testimony


During this reporting period, Inspector General J. Russell George and Deputy Inspector General
for Audit Michael R. Phillips, testified before Congress on three occasions.
        “Filing Your Taxes: An Ounce of Prevention is Worth a Pound of Cure”
On April 12, 2007, Mr. Phillips testified before the Senate Committee on Finance regarding the
2007 Filing Season, identity theft, and fraud. Mr. Phillips said that overall, the 2007 Filing
Season appeared to be progressing without major problems. Also, use of the IRS Internet site
(IRS.gov) and the number of electronically filed tax returns were higher than during the same
time period in 2006. He said that TIGTA was concerned, however, that changes in the Free File
Agreement and elimination of the TeleFile Program in 2005 may have slowed the growth of
electronic filing.
Mr. Phillips also said that TIGTA is concerned about the IRS’ telephone excise tax refund
program, noting that of the 74 million individual tax returns that had been processed, about 30
percent failed to claim the refund. It was equally troubling that some paid tax preparers had filed
thousands of highly suspicious claims that were well over the standard amounts yet too low to
trigger IRS scrutiny, he said.
Mr. Phillips also discussed TIGTA’s concern about IRS-related identity theft and fraud, noting
that TIGTA audits over the past four years have identified persistent computer security
weaknesses that jeopardize the security of personally identifiable information. In addition,
Mr. Phillips said that both TIGTA and the IRS are concerned by an increasing number of
fraudulent claims that are being filed, noting that identity theft is a growing problem associated
with refund fraud.
 Legislative hearing on draft proposals: the Contractor Tax Enforcement Act and the
         Pilot Program for Local Governments to Offset Federal Tax Refunds
On April 19, 2007, Mr. George testified before the House Committee on Oversight and
Government Reform’s Subcommittee on Government Management, Organization, and
Procurement. Mr. George noted that the draft “Contractor Tax Enforcement Act” would
effectively make any person with an outstanding Federal tax debt ineligible to enter into a



                                                                                                     41
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
contract or to receive a loan from a Federal agency. Mr. George said that although TIGTA has
not performed work directly on this issue, TIGTA anticipates that the impact on the IRS’ other
tax administrative efforts should be minimal if the proposed requirement is implemented in a
manner similar to the IRS’ current practices.
In addressing draft legislation to amend title 31 of the United States Code to create a pilot
program to examine the feasibility and potential for collecting certain local tax debts, Mr. George
noted that since 1984, the Internal Revenue Code has required that a Federal taxpayer’s
overpayment be applied to non-tax Federal debt prior to issuing a refund or crediting an
overpayment to a future obligation, and the IRS has facilitated these offsets.
As well, in 1999, the Department of the Treasury’s Financial Management Service (FMS) began
offsetting Federal refunds to pay outstanding child support and Federal agency debts. In 2000 the
program was extended to include State income tax debt. Mr. George said that the offset program
has been highly successful, and if this legislative proposal is analogous, it should help local
governments with their tax collection efforts. Assuming that the proposed pilot would operate
through the Treasury Offset Program, it would affect FMS but would not adversely affect the IRS
or Federal tax administration, he said.
                     Internal Revenue Service FY 2008 Budget Request
On May 9, 2007, Mr. George testified before the Senate Appropriations Committee’s
Subcommittee on Financial Services and General Government on the IRS’ Fiscal Year 2008
budget request.
Mr. George said that the IRS’ request of $11.4 billion includes funding for programs that pose
long- and short-term challenges for the Service, which include improving taxpayer services,
enhancing enforcement of the tax laws, and the IRS’ modernization efforts, all while attempting
to ensure their security.
Mr. George said that despite the challenges of implementing last-minute tax law changes, the
2007 Filing Season appeared to be progressing without major problems. However, he said,
TIGTA is concerned about the IRS’ telephone excise tax refund program because many taxpayers
were not claiming the refund even though the IRS had simplified the process. In addition, some
taxpayers had submitted highly questionable refund claims that did not garner further IRS
scrutiny, he said.
In addition, Mr. George noted that approximately $62 million in the IRS budget proposal would
be used to develop and deploy its business systems modernization effort, including the Customer
Account Data Engine, which will replace the antiquated Master File system. However, Mr.
George noted that the CADE program could not meet expectations this filing season due to
delays. While this is a short-term concern, he said, there has been a pattern of deferring CADE
requirements and missing deployment dates. Allowing this pattern to continue could undermine
the long-term success of the project, he said.




 42
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                 Awards and Special
                   Achievements
                TIGTA Executive Receives 2007 Presidential Rank Award




                                    Joseph I. Hungate
                            Principal Deputy Inspector General

In September 2007, TIGTA’s Principal Deputy Inspector General, Joseph I. Hungate, received
the prestigious Presidential Rank Award of Distinguished Executive for Meritorious Service.
Mr. Hungate was recognized for his sustained extraordinary accomplishments. Each year, the
President recognizes a small group of outstanding leaders in the Senior Executive Service who
achieve results and consistently demonstrate strength in leadership, integrity, industry, and
relentless commitment to excellence in public service.

        TIGTA Recognized by the President’s Council on Integrity and Efficiency

The PCIE 2007 Awards Committee presented Awards of Excellence to three teams within
TIGTA’s Office of Audit and one individual within TIGTA’s Office of Investigations.

The Electronic Fraud Detection System Audit Team was recognized for its outstanding
achievement in identifying and reporting system development issues. The audit team members
included Margaret Begg, Assistant Inspector General for Audit, Information Systems
Programs; Mark Carder, Senior Auditor; Olivia DeBerry, Auditor; Gary Hinkle, Director;
Linda Screws, Auditor; Danny Verneuille, Audit Manager; Van Warmke, Senior Auditor; and
Tina Wong, Senior Auditor.



                                                                                            43
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
The Protection of Electronic Media Audit Team was recognized for its achievement in
reporting weaknesses in encryption controls and physical security over personal financial data
and other personal information, such as Social Security numbers, on IRS laptop hard drives.
The audit team members included Margaret Begg, Assistant Inspector General for Audit,
Information Systems Programs; Richard Borst, Senior Auditor; Joseph Cooney, Acting Audit
Manager; Louis Lee, Senior Auditor; Abraham Millado, Senior Auditor; Steve Mullins,
Director; Jacqueline Nguyen, Senior Auditor; Midori Ohno, Lead Auditor; and Kent Sagara,
Audit Manager.

The Stoneham Audit Group was recognized for its valuable service to the American public by
determining how the IRS can improve its ability to identify tax-exempt organizations
potentially involved in terrorist activities. The audit team members included Nancy Nakamura,
Assistant Inspector General for Audit, Headquarters Operations and Exempt Organizations
Programs; Kenneth Forbes, Senior Auditor; Tom Hawkins, Acting Audit Director; Jeffrey
Jones, Audit Manager; and Cheryl Medina, Senior Auditor.

Special Agent Anthony G. Armentano was recognized for his outstanding performance and
commitment to excellence while conducting a high-impact investigation involving the criminal
activity of an IRS agent and his co-conspirators.




       L-R: Kent Sagara; Gary Hinkle; Joe Ananka;         L-R: Michael Delgado; Timothy Camus;
       Mike Phillips; J. Russell George; Margaret Begg;   Anthony Armentano; J. Russell George;
       Steve Mullins; Danny Verneuille; Joseph Conney     Steve Jones; Greg Holley




 44
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
               Audit Statistical Reports
                                 Reports with Questioned Costs

TIGTA issued four audit reports with questioned costs during this semiannual reporting
period1. The phrase “questioned cost” means a cost that is questioned because of:
•    an alleged violation of a provision of a law, regulation, contract, or other requirement
     governing the expenditure of funds;
•    a finding at the time of the audit, that such cost is not supported by adequate documentation
     (an unsupported cost); or
•    a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable.
The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the Federal Government.


                                                 Reports with Questioned Costs
                                                                                  Questioned Costs   Unsupported Costs
                     Report Category                                  Number
                                                                                   (in thousands)      (in thousands)

1. Reports with no management decision at the
   beginning of the reporting period                                      14         $171,269             $82,885
2. Reports issued during the reporting period                              4            $401                  $0
                                       2
3. Subtotals (Item 1 plus Item 2)                                         18         $171,671             $82,885
4. Reports for which a management decision
   was made during the reporting period3
     a. Value of disallowed costs                                         2            $2,800                 $0
     b. Value of costs not disallowed                                     1             $633                 $32
5. Reports with no management decision at the
   end of the reporting period (Item 3 minus Item 4)                      16         $168,237             $82,853
6. Reports with no management decision
   within 6 months of issuance                                            13         $167,858             $82,853
1
   See Appendix II for identification of audit reports involved.
2
   Difference due to rounding
3.
   IRS management disallowed only a part of the questioned cost for one report.




                                                                                                                    45
           TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                             Reports with Recommendations that
                                 Funds Be Put to Better Use
TIGTA issued six reports with recommendations that funds be put to better use during this
semiannual reporting period.1 The phrase “recommendation that funds be put to better use” means a
recommendation that funds could be used more efficiently if management took actions to
implement and complete the recommendation, including:
•       reductions in outlays;
•       deobligation of funds from programs or operations;
•       costs not incurred by implementing recommended improvements related to operations;
•       avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements;
•       preventing erroneous payment of the following refundable credits: Earned Income Tax Credit
        and Child Tax Credit; and
•       any other savings that are specifically identified.
The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.


                           Reports with Recommendations that Funds Be Put to Better Use
                                                                                              Amount
                                              Report Category                     Number
                                                                                           (in thousands)
1. Reports with no management decision at the beginning of the reporting period     0               $0
2. Reports issued during the reporting period                                       6           $15,836
3. Subtotals (Item 1 plus Item 2)                                                   6           $15,836
4. Reports for which a management decision was made during the reporting period
     a. Value of recommendations to which management agreed
              i. Based on proposed management action                                6          $15,836
              ii. Based on proposed legislative action                              0               $0
        b. Value of recommendations to which management did not agree               0               $0
5. Reports with no management decision at end of the
   reporting period (Item 3 minus Item 4)                                           0               $0
6. Reports with no management decision within 6 months of issuance                  0               $0
1
    See Appendix II for identification of audit reports involved.




        46
                 TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                   Reports with Additional Quantifiable Impact
                          on Tax Administration

In addition to questioned costs and funds put     category, such as when taxpayers legitimately
to better use, the Office of Audit has            assert that they overpaid their taxes.
identified measures that demonstrate the
value of audit recommendations to tax             Taxpayer Privacy and Security: Protection
administration and business operations. These     of taxpayer financial and account information
issues are of interest to IRS and Treasury        (privacy). Processes and programs that
Department executives, Congress, and the          provide protection of tax administration,
taxpaying public, and are expressed in            account information, and organizational
quantifiable terms to provide further insight     assets (security).
into the value and potential impact of the        Inefficient Use of Resources: Value of
Office of Audit’s products and services.          efficiencies gained from recommendations to
Including this information also promotes          reduce cost while maintaining or improving
adherence to the intent and spirit of the         the effectiveness of specific programs;
Government Performance and Results Act.           resources saved would be available for other
                                                  IRS programs. Also, the value of internal
Definitions of these additional measures are:     control weaknesses that resulted in an
Increased Revenue: Assessment or                  unrecoverable expenditure of funds with no
collection of additional taxes.                   tangible or useful benefit in return.

Revenue Protection: Proper denial of              Reliability of Management Information:
claims for refunds, including                     Ensuring the accuracy, validity, relevance,
recommendations that prevent erroneous            and integrity of data, including the sources
refunds or efforts to defraud the tax system.     of data and the applications and processing
                                                  thereof, used by the organization to plan,
Reduction of Burden on Taxpayers:                 monitor, and report on its financial and
Decreases by individuals or businesses in the     operational activities. This measure will
need for, frequency of, or time spent on          often be expressed as an absolute value
contacts, record keeping, preparation, or costs   (i.e., without regard to whether a number is
to comply with tax laws, regulations, and IRS     positive or negative) of overstatements or
policies and procedures.                          understatements of amounts recorded on the
                                                  organization’s documents or systems.
Taxpayer Rights and Entitlements at Risk:
The protection of due process rights granted      Protection of Resources: Safeguarding
to taxpayers by law, regulation, or IRS           human and capital assets, used by or in the
policies and procedures. These rights most        custody of the organization, from inadvertent
commonly arise when filing tax returns,           or malicious injury, theft, destruction, loss,
paying delinquent taxes, and examining the        misuse, overpayment, or degradation.
accuracy of tax liabilities. The acceptance of
claims for and issuance of refunds
(entitlements) are also included in this


                                                                                              47
       TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
The number of taxpayer accounts and dollar values shown in the following chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or subsequent
business activities impacted from the dates of implementation. Also, a report may have issues that
impact more than one outcome measure category.


                   Reports with Additional Quantifiable Impact on Tax Administration
                                                                    Number of      Number of         Dollar Value
             Outcome Measure Category
                                                                     Reports1   Taxpayer Accounts   (in thousands)

     Increased Revenue                                                  8               2,321         $1,267,685

     Revenue Protection                                                 5              17,283            $43,713

     Reduction of Burden on Taxpayers                                   6             128,152

     Taxpayer Rights and Entitlements at Risk                          10           4,617,313         $1,660,095

     Taxpayer Privacy and Security                                      1                 70

     Inefficient Use of Resources                                       2                                 $15,654

     Reliability of Management Information                             10             117,151            $247,175

     Protection of Resources                                            1
1
    See Appendix II for identification of audit reports involved.



    Management did not agree with the outcome measures in the following reports:
    •  Increased Revenue and Revenue Protection: Reference Numbers 2007-30-063, 2007-30-122, 2007-30-159, and 2007-
       30-170; and
    •  Taxpayer Rights and Entitlements: Reference Number 2007-40-167.

    Management neither agreed nor disagreed with the outcome measure in the following report:
    •  Increased Revenue and Revenue Protection: Reference Number 2007-10-076.
    The following reports contained quantifiable impacts in addition to the number of taxpayer accounts and dollar value:
    •    Taxpayer Burden: Reference Number 2007-40-164;
    •    Taxpayer Rights and Entitlements: Reference Number 2007-10-133;
    •    Reliability of Management Information: Reference Numbers 2007-10-068, 2007-10-081, 2007-40-112, and 2007-10-
         188; and
    •    Protection of Resources: Reference Number 2007-20-104.




      48
             TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                            Investigations
                          Statistical Reports
                                    Significant Investigative Achievements
                                        April 1, 2007 – September 30, 2007

Complaints/Allegations Received by TIGTA
     Complaints against IRS Employees                                                                          2,374
     Complaints against Non-Employees                                                                          2,647

    Total Complaints/Allegations                                                                               5,021

Status of Complaints/Allegations Received by TIGTA
     Investigations Initiated                                                                                  2,037
                                1
     In Process within TIGTA                                                                                     314
     Referred to IRS for Action                                                                                  330
     Referred to IRS for Information Only                                                                        889
                                    2
     Referred to a Non-IRS Entity                                                                                  5
     Closed with No Referral                                                                                   1,043
     Closed with All Actions Completed                                                                           403

    Total Complaints                                                                                           5,021

Investigations Opened and Closed
     Total Investigations Opened                                                                               1,910
     Total Investigations Closed                                                                               2,068

Financial Accomplishments
     Embezzlement/Theft Funds Recovered                                                                 $16,737,258
     Court Ordered Fines, Penalties and Restitution                                                     $13,692,953
     Out-of-Court Settlements                                                                                      0

    Total Financial Accomplishments                                                                    $30,430,211
1
  Complaints for which final determination had not been made at the end of the reporting period.
2
  A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 62 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore were returned to
the IRS. These are not included in the total complaints shown above.




                                                                                                                         49
        TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                        Status of Closed Criminal Investigations
                                                                                                Non-
                                                                       Employee                                          Total
         Criminal Referrals1                                                                   Employee
            Referred – Accepted for Prosecution                             31                       50                  81
            Referred – Declined for Prosecution                            447                     368                  815
            Referred – Pending Prosecutorial Decision                       14                       83                  97

         Total Criminal Referrals                                          492                     501                  993

         No Referral                                                       511                     519                1,030
1
    Criminal referrals include both Federal and State dispositions.


                                                  Criminal Dispositions2
                                                                      Employee           Non-Employee                 Total
Guilty                                                                     31                      47                    78
Nolo Contendere (no contest)                                                0                        0                    0
Pre-trial Diversion                                                         5                        2                    7
                         3
Deferred Prosecution                                                        1                        1                    2
Not Guilty                                                                  1                        1                    2
Dismissed4                                                                  1                        6                    7

Total Criminal Dispositions                                                39                      57                    96
2
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
Investigations table above.
3
  Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain
conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the case. If the
defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.


                    Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                      Total
Removed, Terminated or Other                                                                                            442
Suspended/Reduction in Grade                                                                                            136
Oral or Written Reprimand/Admonishment                                                                                  150
Closed – No Action Taken                                                                                                116
Clearance Letter Issued                                                                                                 117
Employee Resigned Prior to Adjudication                                                                                 179
                                                      6
Non-Internal Revenue Service Employee Actions                                                                           307

Total Administrative Dispositions                                                                                     1,447
5
  Final administrative dispositions during the reporting period. This data may pertain to investigations referred administratively
in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations Opened and Closed
table.
6
  Administrative actions taken by the IRS against non-IRS employees.




    50
          TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                    Appendix I
                                Statistical Reports
                                      - Other
                              Audit Reports with Significant
                             Unimplemented Corrective Actions
The Inspector General Act of 1978 requires identification of significant recommendations described in previous
semiannual reports for which corrective actions have not been completed. The following list is based on information
from the IRS Office of Management Control’s automated tracking system maintained by Treasury Department
management officials.


                     IRS                                                    Report Title and Recommendation
                                                           Projected
Reference         Management                                                            Summary
                                             Issued       Completion
 Number            Challenge                                            (F = Finding No., R = Recommendation No.,
                                                             Date
                     Area                                                             P = Plan No.)
 2001-30-052         Tax Compliance          March 2001                Program Improvements Are Needed to Encourage Taxpayer
                        Initiatives                                    Compliance in Reporting Foreign Sourced Income

                                                            12/15/07   F-3, R-1, P-1, P-2. Improve systems that process data that the IRS receives
                                                                       on foreign sourced income.
 2003-10-054      Using Performance and      March 2003                The Internal Revenue Service Needs to Establish an Effective Process to
                 Financial Information for                             Accurately Identify, Record, and Report Unemployment Trust Fund
                   Program and Budget                                  Administrative Expenses
                        Decisions
                                                            10/01/07   F-1, R-3, P-1. Ensure that the ability to record and report trust fund
                                                                       administrative expenses, as currently envisioned in the IFS development
                                                                       plans, is properly implemented.
 2003-10-094     Erroneous and Improper      March 2003                Improvements Are Needed in the Monitoring of Criminal Investigation
                       Payments                                        Controls Placed on Taxpayers’ Accounts when Refund Fraud Is
                                                                       Suspected

                                                            05/15/07   F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund
                                                                       Program are conducted to assess compliance with procedures and that
                                                                       feedback is provided regarding program effectiveness. Also, analyses of
                                                                       the Fraud Detection Center’s control listing data should be analyzed to
                                                                       ensure that reviews are done and accounts are resolved.

 2003-40-139         Tax Compliance          June 2003                 Opportunities Exist to Improve the Administration of the Earned Income
                        Initiatives                                    Tax Credit

                                                            10/15/07   F-1, R-2, P-1. Establish a consistent method to measure progress toward
                                                                       the Earned Income Tax Credit (EITC) Program’s long-term goals.




                                                                                                                                    51
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     IRS                                                 Report Title and Recommendation
                                                        Projected
Reference         Management                                                         Summary
                                          Issued       Completion
 Number            Challenge                                         (F = Finding No., R = Recommendation No.,
                                                          Date
                     Area                                                          P = Plan No.)
 2003-20-118        Security of the IRS    July 2003                Security Over Computers Used in Telecommuting Needs to Be
                                                                    Strengthened

                                                         01/15/08   F-1, R-6, P-1. Require front-line managers to periodically check their
                                                                    employees’ laptop computers to ensure that sensitive data are being stored
                                                                    and encrypted properly.

 2003-30-176         Tax Compliance         August                  Interest Paid to Large Corporations Could Significantly Increase under
                        Initiatives          2003                   a Proposed New Revenue Procedure

                                                         12/15/07   F-1, R-2, P-1. Gather pertinent information concerning the affected
                                                                    proposed procedure to reduce the length of examinations and interest costs
                                                                    by conducting a pilot program to demonstrate the actual benefits that could
                                                                    be achieved.

 2003-10-212         Human Capital        September                 Information on Employee Training Is Not Adequate to Determine
                                            2003                    Training Cost or Effectiveness

                                                         09/30/07   F-3, R-2, P-3. Ensure that IRS training and financial systems can provide
                                                                    information needed for the IRS to assess its own training efforts.


 2004-20-001      Systems Modernization    October                  Risks Are Mounting As the Integrated Financial System Project Team
                        of the IRS          2003                    Strives to Meet an Aggressive Implementation Date

                                                         12/31/10   F-2, R-1, P-1. Ensure that the disaster recovery environment is completely
                                                                    built-out and tested.


 2004-30-038         Tax Compliance        January                  Access to the Toll-Free Telephone System Was Significantly Improved
                        Initiatives         2004                    in 2003, but Additional Enhancements Are Needed

                                                         07/15/08   F-3, R-1, P-1. Develop an activity-based costing system that reliably
                                                                    captures and reports both the total cost and the cost-per-call of providing
                                                                    services on each toll-free product line.

 2004-30-068         Tax Compliance       March 2004                Additional Efforts Are Needed to Improve the Bank Secrecy Act
                        Initiatives                                 Compliance Program

                                                         07/15/08   F-2, R-1, P-1. Develop standard risk-based case selection criteria that
                                                                    would provide minimum requirements and parameters for case selection.


 2004-40-098     Erroneous and Improper   May 2004                  Better Use of the National Account Profile During Returns Processing
                       Payments                                     Can Eliminate Erroneous Payments

                                                         12/15/07   F-2, R-1, P-1. Conduct studies on the accuracy of EITC claims on tax
                                                                    returns for individuals who have been claimed for EITC purposes who are
                                                                    20 or more years older than the primary taxpayer, or are listed as children
                                                                    who are up to 19 years older than the primary taxpayer.

 2004-20-131        Security of the IRS   September                 The Use of Audit Trails to Monitor Key Networks and Systems Should
                                            2004                    Remain Part of the Computer Security Material Weakness

                                                         04/30/12   F-2, R-4, P-1. Develop and implement a reasonable approach for
                                                                    reviewing audit trails over major applications.




       52
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     IRS                                                Report Title and Recommendation
                                                       Projected
Reference         Management                                                        Summary
                                         Issued       Completion
 Number            Challenge                                        (F = Finding No., R = Recommendation No.,
                                                         Date
                     Area                                                         P = Plan No.)
 2005-40-026       Providing Quality      February                 Processes Used to Ensure the Accuracy of Information for Individual
                   Taxpayer Service         2005                   Taxpayers on IRS.GOV Need Improvement
                      Operations
                                                        12/31/10   F-1, R-1, P-4. Develop a process to ensure that only authorized personnel
                                                                   have access to IRS.gov content.
                                                        12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’ content management software
                                                                   application to provide the ability to identify specific content accessed or
                                                                   revised by individual users.

 2005-20-024       Security of the IRS   March 2005                The Disaster Recovery Program Has Improved, but It Should Be
                                                                   Reported as a Material Weakness Due to Limited Resources and Control
                                                                   Weaknesses

                                                        12/31/10   F-1, R-1, P-1, P-5. Report a disaster recovery program material weakness
                                                                   to the Department of the Treasury as part of the IRS’ Federal Managers’
                                                                   Financial Integrity Act of 1982 annual evaluation of controls and include
                                                                   any new or currently underway activities in the corrective action plan.

 2005-10-070        Human Capital        March 2005                The Human Resources Investment Fund is Not a Cost-Effective Method
                                                                   of Providing Tuition Assistance

                                                        09/30/07   F-2, R-1, P-1. Consider eliminating the HRIF Program and provide tuition
                                                                   assistance through alternative means, such as the Individual Development
                                                                   Plan process and the Career Transition Assistance Program.

 2005-10-107        Human Capital        July 2005                 Improved Policies and Guidance Are Needed for the Telework Program

                                                        10/15/08   F-1, R-1, P-1. Ensure that an IRS-wide Flexiplace Program policy is
                                                                   developed and implemented that addresses all the elements recommended
                                                                   by the OPM.
                                                        10/15/08   F-2, R-1, P-1. Implement guidelines to assist managers in evaluating
                                                                   employees’ abilities to participate in the Flexiplace Program without a loss
                                                                   in productivity.
                                                        10/15/07   F-2, R-2, P-1. Ensure that Flexiplace Program training is provided as
                                                                   needed to help address productivity concerns.
                                                        10/15/08   F-2, R-3, P-1. Assess the logistical support and equipment needs of
                                                                   Flexiplace Program participants to help ensure that there is no loss in
                                                                   productivity.

 2005-40-110       Providing Quality     July 2005                 The Effectiveness of the Taxpayer Assistance Center Program Cannot
                   Taxpayer Service                                Be Measured
                      Operations
                                                        10/15/07   F-1, R-1, P-1. Enhance the management information system to capture the
                                                                   number of taxpayers served, the number and types of services provided,
                                                                   and the related resources.
                                                        10/15/07   F-1, R-2, P-1. Develop a Service Delivery Plan for the short-term and
                                                                   long-term direction of the TAC Program based on business cases and
                                                                   customer input.
                                                        10/15/07   F-1, R-3, P-1. Develop a process that includes routine assessments of
                                                                   TAC operations to ensure that the TACs are optimally located and that the
                                                                   services provided at the TACs are the most effective and cost efficient.




                                                                                                                                  53
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     IRS                                                 Report Title and Recommendation
                                                        Projected
Reference         Management                                                         Summary
                                          Issued       Completion
 Number            Challenge                                         (F = Finding No., R = Recommendation No.,
                                                          Date
                     Area                                                          P = Plan No.)
 2005-10-129       Providing Quality      September                 Progress Has Been Made, but Further Improvements Are Needed in the
                   Taxpayer Service         2005                    Administration of the Low-Income Taxpayer Clinic Grant Program
                      Operations
                                                         12/31/07   F-1, R-1, P-2. Establish goals and performance measures for the LITC
                                                                    Program to assist Congress and the IRS in evaluating the success of the
                                                                    program.
                                                         12/31/07   F-3, R-2, P-1. Develop a method to obtain information necessary to verify
                                                                    that clinics are following all LITC Program requirements.

 2005-10-149         Human Capital        September                 The Internal Revenue Service Does Not Adequately Assess the
                                            2005                    Effectiveness of Its Training

                                                         12/31/07   F-1, R-1, P-1, P-2. Require all business units to follow the training
                                                                    assessment and develop requirements and properly document this process.
                                                         09/30/07   F-2, R-1, P-1, P-2. Ensure that all IRS components follow established
                                                                    procedures to evaluate training in order for the IRS to comply with the
                                                                    training assessment requirement of the Federal Workforce Flexibility Act
                                                                    of 2004.
                                                         09/30/07   F-3, R-1, P-1. Use the numerical scores from the Employee Satisfaction
                                                                    Survey training question in addition to narrative comments.


 2005-30-154     Processing Returns and   September                 The Clarity of Math Error Notices Has Been Improved, but Further
                 Implementing Tax Law       2005                    Changes Could Enhance Notice Clarity and Reduce Unnecessary
                 Changes During the Tax                             Notices
                     Filing Season
                                                         05/15/08   F-1, R-2, P-1. Revise tax statement tables contained on notices to include
                                                                    specific amounts from at least some line items on which taxpayers made
                                                                    errors on their tax returns
 2006-40-007     Erroneous and Improper   November                  Efforts to Prevent Improper Tax Benefits Resulting from Multiple Uses
                       Payments             2005                    of Taxpayer Identification Numbers Can Be Improved

                                                         04/15/08   F-1, R-1, P-2. Lead a collaborative effort to identify a workable solution to
                                                                    resolve multiple identification number use cases where an identification
                                                                    number is used as a primary identification number on one return and a
                                                                    secondary identification number on another return.

 2006-40-024     Processing Returns and   December                  Individual Income Tax Returns Were Timely Processed in 2005;
                 Implementing Tax Law       2005                    However, Implementation of Tax Law Changes Could Be Improved
                 Changes During the Tax
                     Filing Season                       01/15/08   F-3, R-1, P-1. Implement a computer check that would identify
                                                                    questionable large-dollar entries for review and resolution for both paper
                                                                    and electronic individual income tax returns.

 2006-40-061       Providing Quality      March 2006                The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate
                   Taxpayer Service                                 Data
                      Operations
                                                         10/15/07   F-1, R-1, P-1. Ensure that data used in the Model or any decision-making
                                                                    tool are accurate and reliable and have been validated before using them to
                                                                    make decisions regarding the TAC Program.
                                                         10/15/07   F-1, R-2, P-1. Include in the Model or any decision-making tool data to
                                                                    identify customer characteristics and capture customer input to effectively
                                                                    measure the impact any results might have on taxpayer service and
                                                                    compliance.




       54
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     IRS                                                     Report Title and Recommendation
                                                        Projected
Reference         Management                                                             Summary
                                          Issued       Completion
 Number            Challenge                                             (F = Finding No., R = Recommendation No.,
                                                          Date
                     Area                                                              P = Plan No.)
 2006-10-066     Erroneous and Improper   March 2006                    The Office of Professional Responsibility Can Do More to Effectively
                       Payments                                         Identify and Act Against Incompetent and Disreputable Tax
                                                                        Practitioners

                                                                        F-1, R-3, P-1. Develop a method to identify representatives on the
                                                          09/15/07      Centralized Authorization File that does not require representatives to use
                                                                        Social Security numbers on Form 2848.
 2006-20-108      Systems Modernization     August                      The Electronic Fraud Detection System Redesign Failure Resulted in
                        of the IRS           2006                       Fraudulent Returns and Refunds Not Being Identified

                                                          12/31/10      F-3, R-4, P-1. Defer additional work on the Web Electronic Fraud
                                                                        Detection System (EFDS) until the IRS decides who will perform the
                                                                        EFDS work.

 2006-10-124          Tax Exempt          September                     Resource and Computer Programming Limitations Have Hindered the
                      Organizations         2006                        Progress of the Federal, State, and Local Governments Office in
                                                                        Identifying Its Customers

                                                          04/01/08      F-1, R-3, P-1. Revise computer programming to ensure that the code used
                                                                        to identify Federal Government agencies is not deleted if the Form 941
                                                                        filing requirements are removed from an agency’s account.
                                                          04/01/08      F-1, R-5, P-1. Submit a Request for Information Services to allow
                                                                        government entities with unique filing requirement codes, such as Puerto
                                                                        Rico, Virgin Islands, and American Samoa filers, to be coded as Federal,
                                                                        State, and local government office customers.

 2006-40-138        Providing Quality     September                     The Wage and Investment Division’s Automated Underreporter
                    Taxpayer Service        2006                        Telephone Operations Could Improve Service to Taxpayers
                       Operations
                                                        P-2: 11/15/07   F-2, R-1, P-2, P-3. Increase the number of bilingual Automated
                                                        P-3: 04/15/08   Underreporter (AUR) Program assistors available to handle the demand
                                                                        from Spanish-speaking taxpayers; revise the AUR Program tax examiner
                                                                        position description to specifically include telephone duties; and adopt
                                                                        more precise scheduling and assignment practices.

 2006-30-132            Tax Gap           September                     Additional Enhancements Could Improve Tax Compliance of
                                            2006                        Employees Who Receive Tips

                                                                        F-3, R-2, P-1. Ensure that the SWETRS program remains funded through
                                                          02/15/09      completion and include the gaming tip agreements in the Tip Agreement
                                                                        database.
                                                                        F-4, R-1, P-1. Ensure that the results of initial testing of the ATIP
                                                          02/15/09      Revenue Procedure are analyzed, and consider developing similar
                                                                        Revenue Procedures for small businesses in other industries to increase the
                                                                        chance of improving tip income reporting compliance.

 2006-40-164        Providing Quality     September                     Individual Tax Returns Were Timely Processed in 2006, but
                    Taxpayer Service        2006                        Opportunities Exist to Improve Verification of Certain Tax Deductions
                       Operations
                                                                        F-3, R-1, P-1. Create a new form for the tuition and fees deduction to
                                                          01/15/08      ensure compliance with the tax legislation.




                                                                                                                                       55
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     IRS                                                       Report Title and Recommendation
                                                      Projected
Reference         Management                                                               Summary
                                         Issued      Completion
 Number            Challenge                                               (F = Finding No., R = Recommendation No.,
                                                        Date
                     Area                                                                P = Plan No.)
 2006-20-166       Security of the IRS   September                        The Monitoring of Privacy Over Taxpayer Data Is Improving, Although
                                           2006                           Enhancements Can Be Made to Ensure Compliance with Privacy
                                                                          Requirements

                                                         10/15/07         F-1, R-1, P-1. Request that IRS business owners identify and report all
                                                         P-1, P-2:        systems or projects that collect personally identifiable information.
                                                                          F-1, R-2, P-1, P-2, P-3. Establish a centralized repository for all Privacy
                                                          10/15/07        Impact Assessment in a searchable, electronic format.
                                                       P-3: 02/15/08      F-2, R-1, P-1, P-2, P-3, P-4. Initiate a program providing for the routine
                                                       P-1: 10/15/07      evaluation of employee training activities relative to current privacy policy
                                                     P-2, P-3: 10/15/08   requirements and develop a system for tracking and monitoring these
                                                       P-4: 10/15/07      activities.
                                                          P-1, P-2:       F-2, R-2, P-1, P-2, P-3. Reinforce the importance of Privacy Impact
                                                          10/15/07        Assessment case documentation with specific instructions or case models
                                                       P-3: 04/15/09      and implement a compliance review process to assess whether IRS
                                                                          business units are adhering to privacy regulations, given limited resources
                                                                          and staff knowledge in conducting these reviews.
 2006-40-172       Security of the IRS   September                        Accountability over Volunteer Income Tax Assistance Program
                                           2006                           Computers Continues to Be a Problem

                                                       P-1: 06/01/07      F-1, R-2, P-1, P-2. Integrate the ITAMS and STARS to link the
                                                       P-2: 05/15/07      information between the two and ensure that all VITA Program computers
                                                                          are properly and efficiently controlled.
 2006-20-177       Security of the IRS   September                        Improvements Are Needed to Ensure that the Use of Modernization
                                           2006                           Applications Is Effectively Audited

                                                         10/15/07         F-1, R-1, P-1. Establish a review process for CADE audit trails.
                                                         11/15/07         F-2, R-1, P-1. Reassess the requirements for SAAS audit trails, including
                                                                          identifying all user requirements and the resulting SAAS system
                                                                          requirements needed to achieve them.
                                                         10/15/08         F-2, R-2, P-1. Modify modernized system audit trails to comply with
                                                                          SAAS standards, ensuring that data collected are valid and arranged in the
                                                                          proper format.
                                                         04/15/08         F-2, R-3, P-1. Re-evaluate SAAS procedures and processes to ensure that
                                                                          the new SAAS requirements are incorporated and that responsibilities for
                                                                          reviewing modernization audit trails are adequately defined.
 2006-20-178       Security of the IRS   September                        Complete Certification and Accreditation Is Needed to Ensure that the
                                           2006                           Electronic Fraud Detection System Meets Federal Government Security
                                                                          Standards

                                                         01/15/08         F-3, R-1, P-1. Develop a Business Impact Analysis for the Enterprise
                                                                          Computing Center – Memphis that places the EFDS at an appropriate
                                                                          priority among the other major applications residing at the Enterprise
                                                                          Computing Center – Memphis.

 2007-40-026       Providing Quality      January                         Improvements to the E-Help Desk Are Needed to Support Expanding
                   Taxpayer Service        2007                           Electronic Products and Services
                      Operations
                                                       P-1: 11/25/07      F-1, R-1, P-1, P-2. Develop a process to ensure that customer satisfaction
                                                       P-2: 11/15/07      is timely measured.
                                                     P-2, P-3: 01/15/08   F-1, R-4, P-2, P-3. Develop processes and procedures to ensure that
                                                                          management information is complete and accurate.
                                                         10/15/07         F-1, R-6, P-1. Realign the E-Help Desk Program assistors under the
                                                                          BSBA office.




       56
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     IRS                                                Report Title and Recommendation
                                                       Projected
Reference         Management                                                        Summary
                                         Issued       Completion
 Number            Challenge                                        (F = Finding No., R = Recommendation No.,
                                                         Date
                     Area                                                         P = Plan No.)
 2007-20-048       Security of the IRS   March 2007                The Internal Revenue Service Is Not Adequately Protecting Taxpayer
                                                                   Data on Laptop Computers and Other Portable Electronic Media
                                                                   Devices

                                                        12/15/07   F-2, R-3, P-1. Periodically publicize an explanation of employee’s
                                                                   responsibilities for preventing the loss of computer equipment and
                                                                   taxpayer data, the associated disciplinary penalties for negligence over the
                                                                   responsibilities, and a statistical summary of actual violations and
                                                                   disciplinary actions relating to loss of computer equipment and taxpayer
                                                                   data.
                                                        10/15/07   F-3, R-2, P-1. Require front-line managers to periodically check their
                                                                   employees’ laptop computers to ensure that encryption solutions are being
                                                                   used by employees and sensitive data are encrypted properly.
                                                        04/01/08   F-5, R-1, P-1. Implement procedures to encrypt backup data sent to non-
                                                                   IRS facilities.
                                                        12/01/07   F-5, R-2, P-1. Ensure that employees who are assigned oversight
                                                                   responsibilities for non-IRS facilities conduct and certify annual inventory
                                                                   validations of backup media; conduct periodic checks to verify the
                                                                   accuracy of the access list and ensure that individuals who no longer have
                                                                   a need to access the non-IRS facilities have been removed; and conduct
                                                                   annual internal physical security reviews of the non-IRS offsite facility to
                                                                   determine that the site meets IRS requirements.

 2007-30-049        Tax Compliance       March 2007                The Internal Revenue Service Needs to Improve Procedures to Identify
                       Initiatives                                 Noncompliance with the Reporting Requirements for Noncash
                                                                   Charitable Contributions

                                                        10/15/07   F-1, R-1, P-1, P-2, P-3. Develop a comprehensive outreach plan on the
                                                                   reporting requirements for noncash charitable contributions for the affected
                                                                   taxpayers and tax practitioners.
                                                        01/15/09   F-2, R-1, P-3. Develop procedures to address returns without required
                                                                   substantiation for noncash charitable contributions.

 2007-40-057       Providing Quality     March 2007                Steps Can Be Taken to Reduce the Challenges Taxpayers with Vision
                   Taxpayer Service                                Impairments Face When Attempting to Meet Their Tax Obligations
                      Operations
                                                        05/15/08   F-1, R-1, P-1. Consider eliminating the income restriction on free tax
                                                                   preparation of simple tax returns at Taxpayer Assistance Centers for
                                                                   taxpayers with disabilities and allow them to schedule appointments in
                                                                   advance for tax return preparation assistance.
                                                        12/15/07   F-1, R-2, P-1. Provide an interface that would make tax preparation
                                                                   software packages accessible to blind and other taxpayers with vision
                                                                   impairments through the Free File Web site.
                                                        05/15/08   F-2, R-1, P-2. Conduct a study to determine the current and future needs
                                                                   and required services for taxpayers with vision impairments.
                                                        05/15/09   F-2, R-2, P-1. Using the results of the study, develop a long-term strategy
                                                                   to assist taxpayers with vision impairments, including seniors.
                                                        12/15/07   F-3, R-1, P-1. Provide additional viewing options on IRS.gov, such as
                                                                   scalable fonts, enlarged text size, or background colors to make it more
                                                                   accessible to taxpayers with vision impairments.
 2007-20-059       Security of the IRS   March 2007                The Background Investigation Process Needs Improvements to Ensure
                                                                   Investigations Are Completed Timely and Effectively

                                                        10/15/07   F-2, R-1, P-1. Periodically remind business unit managers, contracting
                                                                   officer’s technical representatives, and system administrators to review
                                                                   documentation verifying that contractors have been pre-screened before
                                                                   they are given access to computer systems.




                                                                                                                                  57
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                     IRS                                                    Report Title and Recommendation
                                                   Projected
Reference         Management                                                            Summary
                                     Issued       Completion
 Number            Challenge                                            (F = Finding No., R = Recommendation No.,
                                                     Date
                     Area                                                             P = Plan No.)
 2007-10-061         Tax Exempt      March 2007                        Tax-Exempt Hospital Industry Compliance with Community Benefit
                     Organizations                                     and Compensation Practices Is Being Studied, but Further Analyses Are
                                                                       Needed to Address Any Noncompliance

                                                      09/15/08         F-1, R-1, P-1. Ensure that the interim report includes an assessment of
                                                                       how tax-exempt hospitals are providing a community benefit, as well as
                                                                       any planned actions that are determined to be necessary to address the
                                                                       community benefit standard.


 2007-30-062        Tax Compliance   March 2007                        Social Security and Medicare Taxes Are Not Being Properly Assessed on
                       Initiatives                                     Some Tips and Certain Types of Wage Income

                                                    P-1, P-2, P-6:     F-1, R-1, P-1, P-2, P-5, P-6, P-7. Use Form 4137 exclusively for
                                                       11/15/07        calculating Social Security and Medicare taxes on tip income. Revise the
                                                  P-5, P-7: 01/15/08   form to capture the data necessary to assess the employer’s share of Social
                                                                       Security and Medicare taxes on unreported tip income.
                                                      01/15/09         F-1, R-2, P-1, P-2. Develop a compliance program to ensure that the
                                                                       revised Form 4137 is used effectively to identify and assess the employer’s
                                                                       share of Social Security and Medicare taxes on unreported tip income.
                                                    P-1: 11/15/07      F-2, R-1, P-1, P-2. Create a new form for the reporting of the worker’s
                                                    P-2: 01/15/08      share of Social Security and Medicare taxes on wage income for taxpayers
                                                                       who fall under Section 530 or whose employment status is in dispute.
                                                                       F-2, R-2, P-1, P-2, P-3, P-6, P-7. Discontinue the use of Form 4137 when
                                                    P-1, P-2, P-3:     the new form is created; delete Schedule U from the bottom of Form 4137;
                                                       11/15/07        create instructions that clearly state the criteria for filing the new wage
                                                  P-6, P-7: 01/15/08   form; modify instructions on the back of Form 1099-MISC to refer
                                                                       taxpayers to the instructions for the new form; add a specific section to
                                                                       Publication 17 containing instructions for taxpayers who have employment
                                                                       status conflicts with employers and instructions regarding who may qualify
                                                                       to file the new form; and ensure that the wage data from the new form will
                                                                       be sent electronically the SSA.
                                                                       F-3, R-1, P-1, P-2, P-5. Ensure that the newly created form requires
                                                  P-1, P-2: 11/15/07   documentation of a name and EIN for each employer; ensure that the form
                                                    P-5: 01/15/08      requires the taxpayer to indicate the reason for reporting wage income, the
                                                                       date on which the taxpayer received an IRS determination letter in
                                                                       response to a Form SS-8, or a statement that an IRS determination had
                                                                       been requested; and develop procedures to correspond with taxpayers
                                                                       filing paper returns who do not provide the requested data and do not
                                                                       accept for processing any incomplete form filed electronically.
                                                                       F-3, R-2, P-1, P-2. Develop a compliance program to help ensure that only
                                                      01/15/09         qualifying individuals use the new form and that the appropriate amounts
                                                                       of Social Security and Medicare taxes are assessed for self-employed
                                                                       taxpayers or employers who are misclassifying their employees.

 2007-30-066        Tax Compliance   March 2007                        The Private Debt Collection Program Was Effectively Developed and
                       Initiatives                                     Implemented, but Some Follow-Up Actions Are Still Necessary

                                                      12/15/07         F-1, R-1, P-1. Include a requirement for private collection agencies (PCA)
                                                                       to maintain Federal tax information on a separate, dedicated server when
                                                                       the IRS expands the program to include additional contractors.
                                                      12/15/07         F-3, R-1, P-1. Include a requirement for PCAs to provide a copy of scripts
                                                                       for all telephone contacts with taxpayers to the IRS, who will then review
                                                                       and approve them.
                                                      11/15/07         F-4, R-1, P-1. Continue updating the revenue model to ensure that the IRS
                                                                       appropriately accounts for the impact of taxpayers who opt out of the
                                                                       program, the age of the balance due, and the actual collection rate
                                                                       achieved.




       58
               TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                    Other Statistical Reports

              The Inspector General Act of 1978 requires Inspectors General
                             to address the following issues:
                          Issue                                             Result for TIGTA
Access to Information                                        As of September 28, 2007, there were no
Report unreasonable refusals of information available to     instances in which information or assistance
the agency that relate to programs and operations for        requested by the Office of Audit was refused.
which the Inspector General has responsibilities.
Disputed Audit Recommendations                               As of September 28, 2007, no reports were issued
Provide information on significant management decisions in   in which significant recommendations were
response to audit recommendations with which the Inspector   disputed.
General disagrees.
Revised Management Decisions                                 As of September 28, 2007, no significant
Provide a description and explanation of the reasons for     management decisions were revised.
any significant revised management decisions made
during the reporting period.
Audit Reports Issued in the Prior Reporting Period           As of September 28, 2007, there were no prior
with No Management Response                                  reports where management’s response was not
Provide a summary of each audit report issued before the     received.
beginning of the current reporting period for which no
management response has been received by the end of the
current reporting period.

Review of Legislation and Regulations                        TIGTA’s Office of Chief Counsel reviewed 183
Review existing and proposed legislation and regulations,    proposed regulations and legislative requests
and make recommendations concerning the impact of            during this reporting period.
such legislation or regulations.




                                                                                                                59
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
60
     TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                Appendix II
                               Audit Products
                      April 1, 2007 – September 30, 2007


                              Inspector General Congressional Testimony
Reference Number                                       Hearing Title
             April 2007
                     Inspector General Testimony Before U.S. Senate Committee on Finance – Filing Your Taxes: An Ounce
   2007-OT-100
                     of Prevention is Worth a Pound of Cure
                     Inspector General Testimony Before Subcommittee on Government Management, Organization and
   2007-OT-101
                     Procurement – Committee on Oversight and Government Reform – U.S. House of Representatives
                 May 2007
                     Inspector General Testimony Before Subcommittee on Financial Services and General Government –
   2007-OT-102
                     Committee on Appropriations – U.S. Senate – Internal Revenue Service FY 2008 Budget Request




                                                   Audit Products

Reference Number                                        Report Title
               April 2007
                     Complete Actions Were Not Taken to Validate the Best Software Solution Was Chosen for the Private
   2007-20-065
                     Debt Collection Program
   2007-40-072       Interim Results of the 2007 Filing Season
                     Opportunities Exist to Improve the Processing and Accuracy of Electronically Filed Individual Income
   2007-30-063
                     Tax Returns (Revenue Protection: $5.8 million impacting 3,365 taxpayers)
   2007-30-070       Fiscal Year 2007 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
                     Invoice Audit of the Financial Statement/Government Accountability Office Audit Support Services
   2007-10-069
                     Contract – TIRNO-03-K-00167 (Questioned Costs: $22,536)
                     Continued Improvements Are Needed for the Development and Operations of the New Enterprise
   2007-20-073
                     Services Organization
                     More Careful Monitoring of Billings for Working Capital Fund Administrative Services Is Needed
   2007-10-074
                     (Reliability of Information: $34,485,176 in misclassified transactions)
                 May 2007
                     The Modernization and Information Technology Services Organization Can Improve Its Budget
   2007-20-064
                     Formulation, Execution, and Review Processes
                     The Office of Appeals Needs to Improve the Monitoring of Its Campus Operations Quality (Revenue
                     Protection: $108,091 impacting 3,732 taxpayers; Taxpayer Burden: 3,642 taxpayers with delays in
                     notification and scheduling of appeals and resolution of cases; Taxpayer Rights and Entitlements: 8,704
   2007-10-071       taxpayers who did not receive proper notification on innocent spouse cases or of the availability of
                     hearings; Taxpayer Privacy and Security: 70 unauthorized disclosures of information)




                                                                                                                         61
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                                     Audit Products

Reference Number                                         Report Title
                      Inefficiencies in Processing Operations Assistance Requests Caused Taxpayers Unnecessary Delays
                      (Taxpayer Burden: delays impacting 89,263 taxpayers; Reliability of Information: milestone dates
   2007-10-068        incorrectly entered for 90,000 Operations Assistance Requests and 37,212 instances of request delays
                      that may not be identified)

                      The Strategic Improvement Themes in the Taxpayer Assistance Blueprint Phase I Report Appear to Be
   2007-40-078
                      Sound; However, There Were Some Inaccurate Data in the Report
                      The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan As
   2007-10-077        of December 31, 2006 (Reliability of Information: $58.5 million in resources which could not be
                      verified or differed materially from IRS-provided documentation)
                      Screening Tax-Exempt Organizations’ Filing Information Provides Minimal Assurance That Potential
   2007-10-082
                      Terrorist-Related Activities Are Identified
                      Screening Electronically Filed Returns for Errors Provides a Significant Benefit and Does Not Appear
   2007-40-079        to Be a Barrier to Electronic Filing (Funds Put to Better Use: $62,230; Taxpayer Burden: 31,590
                      taxpayers that filed a second, paper return)
                      Opportunities Exist to Help Seniors and Many Other Taxpayers Who Repeatedly Make Mistakes on
   2007-30-075
                      Their Individual Income Tax Returns
                      Actions Have Been Taken to Address Deficiencies in the Questionable Refund Program; However,
   2007-10-076        Many Concerns Remain, With Millions of Dollars at Risk (Increased Revenue: $81.5 million; Revenue
                      Protection: $34.3 million)
                  June 2007
                      Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From Fiscal Year
   2007-10-083
                      2000 Through Fiscal Year 2006
                      More Complete and Accurate Data Are Needed to Assess the Impact of Actions to Address Compliance
   2007-10-081        Reporting of State and Local Government Entities (Reliability of Information: 40 accounts with
                      inaccurate or incomplete information)
                      Sufficient Emphasis Was Not Placed on Resolving Security Vulnerabilities When Restoring the
   2007-20-108
                      Electronic Fraud Detection System
   2007-1C-084        Report on the Audit of Cost Accounting Standard 409, Depreciation of Tangible Capital Assets
   2007-20-110        Progress Has Been Slow in Meeting Homeland Security Presidential Directive-12 Requirements
                      Additional Action Is Needed to Expand the Use and Improve the Administration of the Free File
   2007-40-105
                      Program
                 July 2007
                      Management Practices Over End-User Computer Server Storage Need Improvement to Ensure
   2007-20-103        Effective and Efficient Storage Utilization (Funds Put to Better Use: $9,345,125; Inefficient Use of
                      Resources: $14,553,876)
                      The Internal Revenue Pay-for-Performance System May Not Support Initiatives to Recruit, Retain, and
   2007-10-106
                      Motivate Future Leaders
                      Fiscal Year 2007 Review of Compliance With Legal Guidelines When Conducting Seizures of
   2007-30-109        Taxpayers’ Property (Taxpayer Rights and Entitlements: 20 taxpayers whose rights could be adversely
                      affected)
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal
                      Tax Protester and Similar Designations (Taxpayer Rights and Entitlements: 601 taxpayers improperly
   2007-40-112
                      identified; Reliability of Information: One Internal Revenue Manual subsection with prohibited
                      reference to Illegal Tax Protester Designations)
                      The Modernized e-File Project Can Improve Its Management of Requirements
   2007-20-099




    62
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                                   Audit Products

Reference Number                                       Report Title

   2007-20-104       Network Devices Are Running Unnecessary Communication Services Which Could Expose Sensitive
                     Data to Unauthorized Individuals (Protection of Resources: 31,445 devices on the IRS network that
                     were potentially vulnerable due to the existence of unneeded non-secure services)
                     System Updates and Control Improvements Are Needed to Ensure Contact Recording Will Provide an
   2007-40-115       Accurate Assessment of Taxpayer Assistance Quality

                     Suspended E-File Providers Were Not Adequately Assisted With Reinstatement of Electronic Filing
   2007-40-114
                     Privileges
   2007-40-119       Fiscal Year 2007 Statutory Review of Disclosure of Collection Activity With Respect to Joint Returns
                     Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
   2007-20-080
                     Capabilities
                     The Internal Revenue Service Expects to Spend About $13 Million to Recover From the 2006 Flood of
   2007-10-113
                     Its Headquarters Building
   2007-40-118       Fiscal Year 2007 Statutory Review of Restrictions on Directly Contacting Taxpayers
   2007-20-107       Employees Continue to Be Susceptible to Social Engineering Attempts That Could Be Used by Hackers
   2007-40-116       Eliminating TeleFile Increased the Cost and Burden of Filing a Tax Return for Many Taxpayers
                     While Improvements Continue in Contract Negotiation Methods and Management Practices,
   2007-20-123
                     Inconsistencies Need to Be Addressed (Funds Put to Better Use: $3,682,729)
                     The Philadelphia Collection Field Function Office Properly Controlled Form 809 Receipt Books and
   2007-30-126
                     Timely Transmitted Remittances for Processing
                     Treasury Inspector General for Tax Administration – Federal Information Security Management Act
   2007-20-136
                     (Intelligence – National Security Systems) Report for Fiscal Year 2007
                     The Centralized Lien Unit Properly Filed Federal Tax Liens but Needs to Minimize the Number of and
   2007-30-122       Improve Controls Over Liens Returned by Recording Offices (Increased Revenue: $3.4 million;
                     Taxpayer Burden: 14 taxpayers whose liens may not have been released)
                     The Phoenix Collection Field Function Office Properly Controlled Form 809 Receipt Books and
   2007-30-132
                     Timely Transmitted Remittances for Processing
                 August 2007
                     The Kansas City Collection Field Function Office Properly Controlled Form 809 Receipt Books and
   2007-30-138
                     Timely Transmitted Remittances for Processing
   2007-1C-085       Incurred Costs Audit for the 3-Month Period October 1, 2002, Through December 31, 2002
   2007-1C-086       Incurred Costs Audit for Fiscal Year 2002 (Company 9)
   2007-1C-087       Incurred Costs Audit for Fiscal Year 2003 (Company 9)
   2007-1C-088       Report on Audit of Annual Incurred Cost for Subcontractor’s Fiscal Year Ended December 31, 2002
   2007-1C-089       Report on Audit of Annual Incurred Cost for Fiscal Year Ending December 31, 2003
   2007-1C-090       Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2005 (Company 1)
   2007-1C-091       Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2005 (Company 6)
   2007-1C-092       Incurred Costs Audit for Fiscal Year Ended June 30, 2005
   2007-1C-093       Report on Audit of Accounting System Internal Controls
                     Report on the Contractor’s Compliance With Requirements of the Office of Management and Budget
   2007-1C-094
                     Circular A-133 and Report on Audit of Incurred Costs for Fiscal Year 2001
   2007-1C-095       Audit of Compensation System Internal Controls
   2007-1C-096       Incurred Costs Audit for Fiscal Year Ended December 31, 2004


                                                                                                                        63
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                                  Audit Products

Reference Number                                      Report Title
   2007-1C-097     Report on the Contractor’s Labor Charging and Cost Allocations
                   Report on Audit of the Contractor’s Information Technology Segment Incurred Cost Proposal for Fiscal
   2007-1C-098
                   Year 2004
                   Processes for Determining Whether to Lease or Purchase Computer Equipment Need to Be Improved
   2007-20-120     (Questioned Costs: $315,537; Inefficient Use of Resources: $1.1 million; Reliability of Information:
                   $34.3 million in misclassified or insufficient information)
                   The Customer Account Data Engine Release 2.1 Generally Posted Tax Return Information Accurately
   2007-40-131
                   (Reliability of Information: 103,109 instances of incorrect postings to taxpayer accounts)
                   Efforts Have Been Made, but Manager and Employee Noncompliance With Security Policies and
   2007-20-117     Procedures Puts Personally Identifiable Information at Risk

                   Taxpayer Service Savings Estimates for Fiscal Years 2006 and 2007 Could Not Be Validated
   2007-40-125     (Reliability of Information: $119.9 million in estimated taxpayer service cost savings that could not be
                   validated)
   2007-40-130     Evaluation of the Characteristics of Unnecessarily Filed Individual Income Tax Returns
                   Standard Database Security Configurations Are Adequate, Although Much Work Is Needed to Ensure
   2007-20-129
                   Proper Implementation
                   The Development of Specific Long-Term Measures and Targets Improved the Internal Revenue
   2007-10-140
                   Service’s Strategic Plan (2005 - 2009)
                   Processes to Resolve Business Taxpayers’ Undeliverable Refunds Need to Be Strengthened (Funds Put
   2007-30-111     to Better Use: $2.6 million; Increased Revenue: $10.4 million; Taxpayer Rights and Entitlements: 15
                   taxpayers who received checks without $8,000 in interest due
   2007-20-121     Annual Assessment of the Business Systems Modernization Program
                   The Indian Tribal Governments Office Has Developed an Effective Customer Satisfaction Survey
   2007-10-135
                   Process
                   The Internal Revenue Service Provides Helpful Tax Law Assistance but Still Has Problems With Tax
   2007-40-164     Return Preparation Assistance (Taxpayer Burden: 13 instances of incorrect answers to tax law questions
                   or incorrect tax returns obtained)
   2007-10-166     Efforts to Collect Delinquent Employment Taxes Owed by Government Entities Could Be Improved
   2007-40-137     Accuracy of Volunteer Tax Returns Is Improving, but Procedures Are Often Not Followed
                   Opportunities Exist to Improve Manual Interest Calculations on Estate Tax Returns (Increased
   2007-30-163     Revenue: $81,677 from ten taxpayer accounts; Taxpayer Rights and Entitlements: $3,161 for six
                   accounts)
                   The Human Capital Office Made Improvements to the Employee Tax Compliance Program but Has Not
   2007-10-128
                   Yet Improved the Detection of Noncompliance
                   The Office of Disclosure Can Improve Compliance With the Freedom of Information Act Requirements
   2007-10-133     (Taxpayer Rights and Entitlements: 1,331 IRS responses to FOIA, Privacy Act and I.R.C. Section 6103
                   requests that improperly withheld information or were not timely)
   2007-20-134     Insufficient Attention Has Been Given to Ensure States Protect Taxpayer Information
                   Mismatched Names and Identification Numbers on Information Documents Could Undermine
   2007-30-159
                   Strategies for Reducing the Tax Gap (Increased Revenue: $1.17 billion)
                   Toll-Free Access for the 2007 Filing Season Was Effective, but the Quality and Level of Customer
   2007-40-160
                   Service for Spanish-Speaking Taxpayers Could Be Improved
   2007-3E-162     Challenges in Reversing the Trends in Manhattan Office Examination Results
                   Consolidation of Tax Return Processing Sites Is Progressing Effectively, but Improved Project
   2007-40-165
                   Management Is Needed




    64
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                                  Audit Products

Reference Number                                       Report Title
                     Fiscal Year 2007 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
   2007-40-167       Requested to Extend the Assessment Statute (Taxpayer Rights and Entitlements: 595 taxpayer and
                     taxpayer representative case files not adequately documented)
                     Positive Steps Have Been Taken to Enhance the Sharing of Information Between Federal Agencies, but
   2007-30-168
                     Additional Actions Are Needed
                 September 2007
   2007-1C-141       Incurred Costs Audit for Fiscal Year 2004 (Company 9)
   2007-1C-144       Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2005 (Company 6)
   2007-1C-145       Incurred Costs Audit for Fiscal Year Ended December 31, 2003
   2007-1C-146       Report on Audit of Preaward Survey of Prospective Contractor’s Accounting System
   2007-1C-147       Audit of Preaward Survey of Prospective Contractor’s Accounting System
                     Significant Challenges Exist in Determining Whether Taxpayers With Schedule C Losses Are Engaged
   2007-30-173
                     in Tax Abuse
   2007-1C-142       Incurred Costs Audit for Fiscal Year 2005 (Company 9)
                     Report on Examination of Direct and Indirect Costs and Rates for Fiscal Year Ended
   2007-1C-143
                     December 20, 2002
   2007-1C-148       Report on Post-Award Accounting System Audit
   2007-1C-151       Modified Financial Condition Risk Assessment
                     Report on Compliance With Cost Accounting Standard 412, Composition and Measurement of Pension
   2007-1C-152
                     Costs, and Cost Accounting Standard 413, Adjustment and Allocation of Pension Costs
   2007-1C-153       Report on Audit of Termination Proposal
                     Employees Are Not Always Ensuring That Taxpayers Pay the Maximum Amount Possible When
                     Granting Partial Payment Installment Agreements (Increased Revenue: $1,870,943; Reliability of
   2007-30-170
                     Information: management did not have an information system to track 14,042 taxpayers with
                     agreements)
                     Delays in Transferring Innocent Spouse Claims Have Resulted in Some Inappropriate Collection
   2007-40-175       Actions (Revenue Protection: $1,641; Funds Put to Better Use: $850; Taxpayer Rights and
                     Entitlements: $83,374 for 51 taxpayers)
                     Improved Procedures Are Needed to Identify Noncompliance With the Reporting Requirements for
   2007-30-171
                     Contributions of Motor Vehicles
   2007-30-172       Like-Kind Exchanges Require Oversight to Ensure Taxpayer Compliance
                     The Federal Tax Deposit Alert Program Helps Taxpayers Comply With Paying Taxes, but Alerts Can
   2007-30-180
                     Be Worked More Effectively
                     The Employer’s ANNUAL Federal Tax Return (Form 944) Program Was Effectively Planned and
   2007-30-182
                     Implemented, but Fewer Returns Than Anticipated Were Filed
                     Management has Emphasized the Fraud Program, but Opportunities Exist to Further Improve It
   2007-30-179
                     (Increased Revenue: $432,000 from six taxpayers)
                     Improving the Toll-Free Telephone Agreement Would Better Assure Tax-Exempt Customer Needs
   2007-10-184       Will Be Met (Taxpayer Burden: 3,643 taxpayers not informed of the change in how their questions
                     would be answered)
   2007-20-161       Effectiveness of Access Controls Over System Administrator User Accounts Can Be Improved
                     Improvements Have Been Made to Monitor Employers Who Use Professional Employer Organizations,
   2007-30-169
                     but More Can Be Done
                     Better Screening and Monitoring of E-File Providers Is Needed to Minimize the Risk of Unscrupulous
   2007-40-176
                     Providers Participating in the E-File Program


                                                                                                                       65
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                                                 Audit Products

Reference Number                                     Report Title
                   Treasury Inspector General for Tax Administration – Federal Information Security Management Act
   2007-20-186
                   Report for Fiscal Year 2007
                   The Office of Appeals Has Improved Its Processing of Collection Due Process Cases (Increased
   2007-10-139     Revenue: 2,305 taxpayers impacted; Taxpayer Rights and Entitlements: 7,321 closed Collection Due
                   Process and Equivalency Hearing cases that did not contain required or sufficient documentation)
                   The 2007 Tax Filing Season Was Generally Successful, and Most Returns Were Timely and Accurately
   2007-40-187     Processed (Revenue Protection: $3.5 million impacting 10,186 taxpayers; Taxpayer Rights and
                   Entitlements: $1.66 billion, impacting 4.6 million taxpayers)
                   Five Fair Tax Collection Practices Violations Resulted in Administrative Actions in Calendar Year
   2007-10-188
                   2006 (Reliability of Information: 26 employee cases not properly coded)
                   Report on the Contractor’s Compliance With Requirements Applicable to Major Programs and on
   2007-1C-149     Internal Control Over Compliance in Accordance With Office of Management and Budget Circular
                   A-133, Fiscal Year 2006 (Questioned Costs: $62,192)
                   Report on the Contractor’s Cumulative Allowable Cost Worksheet for the Fiscal Year Ended
   2007-1C-150
                   June 30, 2005
                   Report on the Contractor’s Compliance With Requirements Applicable to Major Programs and on
   2007-1C-154     Internal Control Over Compliance in Accordance With Office of Management and Budget Circular
                   A-133, Fiscal Year 2003 (Questioned Costs: $1,183)
   2007-1C-155     Incurred Costs Audit for Fiscal Year Ended December 19, 2003
   2007-1C-156     Incurred Costs Audit for Fiscal Year Ended December 31, 2003
   2007-1C-157     Incurred Costs Audit for Fiscal Year 2004
                   Supplemental Report on Audit of Fiscal Year 2003 Incurred Costs Claim (January 1, 2002, through
   2007-1C-158
                   March 28, 2003)
                   The Estate Tax Collection Process Has Improved, but Opportunities Exist to Better Ensure Taxpayers
   2007-30-174
                   Are Treated Equitably
                   The Growing Number of Requests for Procurement Actions at Year-End Increases the Risk of
   2007-10-181
                   Inefficient and Ineffective Spending (Funds Put to Better Use: $144,880)
                   Progress Has Been Made in Improving the Accuracy of Trust Fund Recovery Penalty Transactions;
   2007-10-183
                   However, Significant Work Remains
                   Employee Plans Noncompliance Referrals Are Productive Sources of Work, but Processing Controls
   2007-10-185
                   Need to Be Improved
                   Although Strong Efforts Were Made, a Significant Amount of the Telephone Excise Tax Overcollected
   2007-30-178
                   From Individual Taxpayers May Never Be Refunded




    66
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                   Appendix III
                TIGTA’s Statutory
              Reporting Requirements
TIGTA issued 30 audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2007, TIGTA completed its ninth round of statutory
reviews that are required annually by the Internal Revenue Service Restructuring and Reform Act of
1998. TIGTA also completed its annual review requirement of the Federal Financial Management
Improvement Act of 1996 and the Office of National Drug Control Policy Detailed Accounting
Submission and Assertions. The following table reflects the status of the FY 2007 statutory reviews.


       Reference to                 Explanation of the
                                                                             Comments/TIGTA Audit Status
    Statutory Coverage                  Provision

Enforcement Statistics           Requires TIGTA to                 Reference No. 2007-40-055, March 20, 2007
                                 evaluate the IRS’                 IRS first-line managers had appropriately not used records
Internal Revenue Code (I.R.C.)   compliance with                   of tax enforcement results or production quotas or goals
§ 7803(d)(1)(A)(i)               restrictions under section        when evaluating employees and considered the fair and
                                 1204 of RRA 98 on the use         equitable treatment of taxpayers as a performance
                                 of enforcement statistics to      requirement. First-line managers also appropriately
                                 evaluate IRS employees.           certified that they had not used records of tax enforcement
                                                                   results in a prohibited manner. TIGTA believes that the
                                                                   IRS’ efforts to ensure that managers are not using records
                                                                   of tax enforcement results, or production goals or quotas,
                                                                   to evaluate employees are generally effective and are
                                                                   helping to protect the rights of taxpayers.


Restrictions on Directly         Requires TIGTA to                 Reference No. 2007-40-118, July 13, 2007
Contacting Taxpayers             evaluate the IRS’                 The IRS’ Internal Revenue Manual (IRM) provides
                                 compliance with restrictions      employees guidance to help ensure compliance with the direct
I.R.C.                           under I.R.C. § 7521 on            contact provisions of the I.R.C. In addition, the IRS has
§ 7803(d)(1)(A)(ii)              directly contacting taxpayers     informed taxpayers of these rights through various IRS
                                 who have indicated that they      publications. However, this is the ninth year that TIGTA
                                 prefer their representatives be   could not determine whether IRS employees followed proper
                                 contacted.                        procedures to stop an interview if the taxpayer requested to
                                                                   consult with a representative. Neither TIGTA nor the IRS
                                                                   could readily identify cases where a taxpayer requested a
                                                                   representative or the IRS contacted the taxpayer directly and
                                                                   bypassed the representative. IRS management information
                                                                   systems do not separately record or monitor direct contact
                                                                   requirements, and Congress has not explicitly required the
                                                                   IRS to do so. TIGTA does not recommend the creation of a
                                                                   separate tracking system.




                                                                                                                            67
        TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
        Reference to               Explanation of the
                                                                           Comments/TIGTA Audit Status
     Statutory Coverage                Provision

Filing of a Notice of Lien      Requires TIGTA to               Reference No. 2007-30-051, March 20, 2007
                                evaluate the IRS’compliance     The IRS did not comply with the law in all cases.
I.R.C.                          with required procedures        TIGTA’s review of a statistically valid sample of
§ 7803(d)(1)(A)(iii)            under I.R.C. § 6320 upon the    150 Federal Tax Lien cases identified 142 cases
                                filing of a notice of lien.     (95 percent) for which the IRS did mail lien notices timely
                                                                and correctly as required by I.R.C. § 6320 and internal
                                                                procedures. Four lien notices (about three percent) were
                                                                not sent timely; for another four lien notices (about three
                                                                percent), TIGTA could not determine if the IRS complied
                                                                with the law because the IRS could not provide proof of
                                                                mailing. When an initial lien notice is returned because it
                                                                could not be delivered and a different address is available
                                                                for the taxpayer, the IRS is not always meeting its
                                                                statutory requirement to send the lien notice to the
                                                                taxpayer’s last known address. For 60 (15 percent) of the
                                                                400 cases, the IRS did not research its computer systems
                                                                for the taxpayer’s last known address. These cases could
                                                                involve legal violations.

                                                                Also, the IRS did not always follow its own internal
                                                                guidelines for notifying taxpayer representatives of the filing
                                                                of lien notices. For 15 (60 percent) of the 25 cases in which
                                                                the taxpayer had a representative at the time of the IRS lien
                                                                actions, the IRS did not notify the taxpayer’s representative of
                                                                the lien filing.

Extensions of the Statute of    Requires TIGTA to include       Reference No. 2007-40-167, August 31, 2007
Limitations for Assessment of   information regarding           There was not always documentation in the related case
Tax                             extensions of the statute of    files that taxpayers were advised of their rights regarding
                                limitations for assessment      assessment statute extensions. The IRS still used prior
I.R.C.                          of tax under I.R.C. § 6501      versions of the consent forms although the revised consent
§ 7803(d)(1)(C)                 and the provision of notice     forms that explain taxpayers’ rights to limit or refuse to
                                to taxpayers regarding the      extend the assessment statute of limitations had been
I.R.C.                          right to refuse or limit the    available for over a year. In TIGTA’s sample of 203 tax
§ 6501(c)(4)(B)                 extension to particular         returns, 11 percent of the related case files did not contain
                                issues or a particular period   adequate documentation to support that the taxpayers were
                                of time.                        advised of their rights regarding assessment statute
                                                                extensions. In another 11 percent of the case files with
                                                                authorizations for third-party representation, the IRS did
                                                                not document that the representatives were separately
                                                                notified of the written communications advising taxpayers
                                                                of their rights.




  68
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
        Reference to               Explanation of the
                                                                         Comments/TIGTA Audit Status
     Statutory Coverage                Provision

Levies                          Requires TIGTA to             Reference No. 2007-30-070, April 20, 2007
                                evaluate the IRS’             The IRS has effective controls over the issuance of
I.R.C.                          compliance with required      systemically generated and manually prepared levies in both
§ 7803(d)(1)(A)(iv)             procedures under I.R.C. §     the Automated Collection System and the Integrated Case
                                6330 regarding levies.        Processing System to prevent a levy from being generated
                                                              unless there were at least 30 days between the date taxpayers
                                                              received notice of their appeal rights and the date of the
                                                              proposed levy. TIGTA’s review of 60 systemically generated
                                                              levies and 60 manually prepared levies showed that taxpayers
                                                              received notification of their appeal rights at least 30 days
                                                              prior to the levy.


Collection Due Process          Requires TIGTA to             Reference No. 2007-10-139, September 21, 2007
                                evaluate the IRS’             The IRS made improvements to the Collection Due
I.R.C.                          compliance with required      Process by properly classifying most taxpayer requests to
§ 7803(d)(1)(A)(iii) and (iv)   procedures under I.R.C. §§    give taxpayers the Appeals review they are entitled to and
                                6320 and 6330 regarding the   by revising letters to taxpayers to make them more
                                taxpayers’ rights to appeal   descriptive. However, the IRS was still not consistently
                                lien or levy actions.         including an impartiality statement in the case files, which
                                                              presents a risk of prior involvement in the taxpayer’s case
                                                              and lack of independence. Also, the IRS did not always
                                                              document whether all legal and administrative
                                                              requirements were met, potentially impacting the actions
                                                              taken by Appeals. In addition, the collection statute
                                                              expiration dates for some taxpayers were incorrectly
                                                              lengthened beyond 10 years, which is a potential violation
                                                              of taxpayers’ rights. In addition, other collection statutes
                                                              were not extended long enough or at all, reducing the time
                                                              the IRS has to collect the delinquent taxes.


Seizures                        Requires TIGTA to             Reference No. 2007-30-109, July 3, 2007
                                evaluate the IRS’             Review of a random sample of 50 seizures selected from 508
I.R.C.                          compliance with required      seizures conducted between July 1, 2005, and
§ 7803(d)(1)(A)(iv)             procedures under I.R.C. §§    June 30, 2006, identified 15 seizures with 17 instances where
                                6330 through 6344 when        the IRS did not fully comply with a particular I.R.C.
                                conducting seizures.          requirement. While TIGTA did not identify any instances in
                                                              which the taxpayers were adversely affected, not following
                                                              legal and internal guidelines could result in abuses of
                                                              taxpayers’ rights. In addition, internal controls for sales of
                                                              seized property can be improved to help prevent possible
                                                              abuses of taxpayers’ rights. Internal procedures require that
                                                              sales of seized property be conducted by a property appraisal
                                                              and liquidation specialist assisted by at least one other IRS
                                                              employee. TIGTA identified seven cases where there was no
                                                              documentation in the case file that an IRS employee assisted
                                                              the property appraisal and liquidation specialist with the sale.




                                                                                                                          69
           TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
       Reference to                   Explanation of the
                                                                                Comments/TIGTA Audit Status
    Statutory Coverage                    Provision

Taxpayer Designations – Illegal    An evaluation of the IRS’         Reference No. 2007-40-112, July 3, 2007
Tax Protester Designation and      compliance with                   In general, the IRS is in compliance with the prohibition on
Nonfiler Designation               restrictions under                using Illegal Tax Protester (ITP) or similar designations.
                                   section 3707 of RRA 98 on         The IRS has not reintroduced past ITP codes on the Master
I.R.C.                             designation of taxpayers.         File, and formerly coded taxpayer accounts have not been
§ 7803(d)(1)(A)(v)                                                   assigned similar Master File designations. In addition, the
                                                                     IRS does not have any current publications with ITP
                                                                     references and has removed the one remaining reference from
                                                                     the IRM. There were some references in case files. In 601
                                                                     instances out of approximately 49.6 million records and cases,
                                                                     IRS employees referred to taxpayers as ITPs or other similar
                                                                     designations in case narratives.

Disclosure of Collection           Requires TIGTA to review          Reference No. 2007-40-119, July 12, 2007
Activities With Respect to         and certify whether the IRS       The IRS’ IRM provides employees sufficient guidance for
Joint Returns                      is complying with I.R.C.          handling joint filer collection activity information requests.
                                   § 6103(e)(8) to disclose          However, this is the ninth year that TIGTA could not
I.R.C.                             information to an individual      determine whether the IRS is complying with the statutory
§ 7803(d)(1)(B)                    filing a joint return on          requirements for responding to written collection activity
                                   collection activity involving     information requests from joint filers. Neither TIGTA nor the
I.R.C.                             the other individual filing the   IRS could readily identify any joint filer requests received
§ 6103(e)(8)                       return.                           nationwide. IRS management has decided not to develop a
                                                                     new management control process to track joint filer requests.
                                                                     IRS management information systems do not separately
                                                                     record or monitor joint filer requests, and Congress has not
                                                                     explicitly required the IRS to do so. TIGTA does not
                                                                     recommend the creation of a separate tracking system.



Taxpayer Complaints                Requires TIGTA to include         Statistical results on the number of taxpayer
                                   in each of its Semiannual         complaints received are shown on page 49.
I.R.C.                             Reports to Congress the
§ 7803(d)(2)(A)                    number of taxpayer
                                   complaints received and the
                                   number of employee
                                   misconduct and taxpayer
                                   abuse allegations received by
                                   the IRS or TIGTA from
                                   taxpayers, IRS employees
                                   and other sources.


Administrative or Civil Actions    Requires TIGTA to include         Reference No. 2007-10-188, September 21, 2007
With Respect to the Fair Tax       information regarding any         In Calendar Year (CY) 2006, there were five fair tax
Collection Practices Act of 1996   administrative or civil actions   collection practices violations that resulted in an
                                   with respect to violations of     administrative action being taken against an IRS
I.R.C.                             the fair tax collection           employee. There were no civil actions that resulted in the
§ 7803(d)(1)(G)                    provisions of I.R.C. § 6304,      IRS paying monetary settlements to taxpayers because of a
                                   including a summary of such       fair tax collections practice violation.
I.R.C.                             actions, and any resulting
§ 6304                             judgments or awards granted.
Section 3466 of RRA 98




  70
        TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
       Reference to               Explanation of the
                                                                          Comments/TIGTA Audit Status
    Statutory Coverage                Provision

Denial of Requests for         Requires TIGTA to include        Reference No. 2007-10-133, August 31, 2007
Information                    information regarding            In 4.6 percent of Freedom of Information Act (FOIA) and
                               improper denial of requests      Privacy Act (PA) requests, the IRS improperly withheld
I.R.C.                         for information from the IRS,    information from taxpayers. This represents a lower
§ 7803(d)(1)(F)                based on a statistically valid   percentage of improper withholdings than reported in
                               sample of the total number of    TIGTA’s FY 2006 audit report (6.1 percent). In addition,
I.R.C.                         determinations made by the       the percentage of untimely responses to FOIA and PA
§ 7803(d)(3)(A)                IRS to deny written requests     requests decreased to 2.3 percent in this year’s sample, as
                               to disclose information to       compared to the untimely rates in previous audit reports,
                               taxpayers on the basis of        which ranged from 7.3 to 43.5 percent. The improvement
                               I.R.C. § 6103 or 5 U.S.C.        in timeliness may, in part, be due to a significant decrease
                               § 552(b)(7).                     in the number of FOIA and PA cases received during FY
                                                                2006. However, the IRS improperly withheld information
                                                                from requestor in 14.5 percent of I.R.C. § 6103 cases
                                                                sampled. This represents a significantly higher percentage
                                                                of improper withholdings than the 2.3 percent reported last
                                                                year. TIGTA believes errors occurred mainly because of
                                                                inadequate research or simple oversight by the Disclosure
                                                                office caseworkers.

Adequacy and Security of the   Requires TIGTA to evaluate       Information Technology Reviews:
Technology of the IRS          the IRS’ adequacy and            Reference Number 2007-20-001, October 2006
                               security of its technology.      Reference Number 2007-20-002, October 2006
I.R.C.                                                          Reference Number 2007-20-003, October 2006
§ 7803(d)(1)(D)                                                 Reference Number 2007-20-005, December 2006
                                                                Reference Number 2007-20-024, January 2007
                                                                Reference Number 2007-20-030, March 2007
                                                                Reference Number 2007-20-052, March 2007
                                                                Reference Number 2007-20-065, April 2007
                                                                Reference Number 2007-20-073, April 2007
                                                                Reference Number 2007-20-064, May 2007
                                                                Reference Number 2007-20-080, July 2007
                                                                Reference Number 2007-20-099, July 2007
                                                                Reference Number 2007-20-103, July 2007
                                                                Reference Number 2007-20-123, July 2007
                                                                Reference Number 2007-20-120, August 2007
                                                                Reference Number 2007-20-121, August 2007

                                                                Security Reviews:
                                                                Reference Number 2007-20-023, January 2007
                                                                Reference Number 2007-20-048, March 2007
                                                                Reference Number 2007-20-059, March 2007
                                                                Reference Number 2007-20-060, March 2007
                                                                Reference Number 2007-20-108, June 2007
                                                                Reference Number 2007-20-110, June 2007
                                                                Reference Number 2007-20-104, July 2007
                                                                Reference Number 2007-20-107, July 2007
                                                                Reference Number 2007-20-136, July 2007
                                                                Reference Number 2007-20-117, August 2007
                                                                Reference Number 2007-20-129, August 2007
                                                                Reference Number 2007-20-134, August 2007
                                                                Reference Number 2007-20-161, September 2007
                                                                Reference Number 2007-20-186, September 2007




                                                                                                                        71
        TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
        Reference to                  Explanation of the
                                                                              Comments/TIGTA Audit Status
     Statutory Coverage                   Provision

Federal Financial Management       Requires TIGTA to evaluate       Reference No. 2007-10-077, May 21, 2007
Improvement Act of 1996            the IRS’ financial               TIGTA determined that no intermediate target dates were
                                   management systems to            missed on the 51 open remedial actions and only one
31 U.S.C. § 3512                   ensure compliance with           action was extended. However, 40 of the 51 actions were
                                   Federal requirements, or         new for CY 2006. The 40 new actions all relate to
                                   establishment of a               computer security and replaced 11 existing actions that
                                   remediation plan with            were all scheduled for completion by FY 2008. The new
                                   resources, remedies, and         actions’ completion dates range from FY 2007 through FY
                                   intermediate target dates to     2013.
                                   bring the IRS into substantial
                                   compliance.                      TIGTA’s analysis of individual project resources listed in
                                                                    the December 31, 2006, remediation plan indicated that
                                                                    information on the estimated resources needed to
                                                                    implement the 40 open remedial actions relating to
                                                                    computer security was either incomplete or differed
                                                                    significantly from the detail supporting documentation
                                                                    provided by the IRS. For example, $58.5 million reported
                                                                    for FY 2007 calculated costs related to computer security
                                                                    remediation actions could either not be verified or differed
                                                                    significantly from the detail supporting documentation
                                                                    provided.

Office of National Drug Control    Requires TIGTA to                Reference No. 2007-10-046, February 1, 2007
Policy Detailed Accounting         authenticate the IRS’            TIGTA determined that the IRS’ FY 2006 Office of
Submission and Assertions          Office of National Drug          National Drug Control Policy (ONDCP) detailed
                                   Control Policy detailed          accounting submission and assertions, submitted to
National Drug Enforcement          accounting submission and        TIGTA on January 11, 2007, did not include all required
Policy 21 U.S.C. § 1704(d) and     assertions.                      material information or a reasonably detailed explanation
the Office of National Drug                                         regarding the methodology used to calculate funds
Control Policy Circular entitled                                    expended. On January 25, 2007, TIGTA provided a
Annual Accounting of Drug                                           discussion draft audit report notifying the IRS that its
Control Funds, dated                                                ONDCP detailed accounting submission was materially
April 18, 2003.                                                     incomplete. The IRS responded by indicating that it
                                                                    calculated funds expended on the ONDCP program in FY
                                                                    2006 to be $55.484 million.

                                                                    In general, TIGTA found the overall cost allocation
                                                                    methodology described in the IRS’ response to be
                                                                    reasonable and adequately explained with the exception of
                                                                    one matter. This matter relates to the IRS’ adjustment of
                                                                    its allocation-based estimate of ONDCP funds expended
                                                                    upwards by $2 million primarily to reflect salary and
                                                                    benefits related to program management and analytical
                                                                    support staff costs it directly attributed to the program.




  72
         TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                   Appendix IV
              Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS employee if
there is a final administrative or judicial determination that, in the performance of official duties, such
employee committed any misconduct violations outlined below. Such termination shall be a removal for
cause on charges of misconduct.

Misconduct violations include:
    •    Willfully failing to obtain the required approval signatures on documents authorizing the seizure of a
         taxpayer’s home, personal belongings, or business assets;
    •    Providing a false statement under oath with respect to a material matter involving a taxpayer or
         taxpayer representative;
    •    Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any right
         under the Constitution of the United States, or any civil right established under Title VI or VII of the
         Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age Discrimination in
         Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation
         Act of 1973; or Title I of the Americans with Disabilities Act of 1990;
    •    Falsifying or destroying documents to conceal mistakes made by any employee with respect to
         a matter involving a taxpayer or taxpayer representative;
    •    Committing assault or battery on a taxpayer, taxpayer representative, or other employee of the
         IRS, but only if there is a criminal conviction or a final judgment by a court in a civil case,
         with respect to the assault or battery;
    •    Violating the Internal Revenue Code of 1986, Treasury regulations, or policies of the IRS (including
         the Internal Revenue Manual) for the purpose of retaliating against, or harassing a taxpayer, taxpayer
         representative, or other employee of the IRS;
    •    Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the purpose
         of concealing information from a congressional inquiry;
    •    Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
         before the date prescribed therefore (including any extensions), unless such failure is due to
         reasonable cause and not to willful neglect;
    •    Willfully understating Federal tax liability, unless such understatement is due to reasonable cause and
         not to willful neglect; and
    •    Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her sole
discretion, may establish a procedure that will be used to determine whether an individual should be
referred to the Commissioner for determination. Any mitigation determination by the Commissioner
in these matters may not be appealed in any administrative or judicial proceeding.

                                                                                                              73
        TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
74
     TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
                  Appendix V
             Data Tables Provided
                  by the IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations
Tracking System (ALERTS) for the period from April 1, 2007, through September 30, 2007.
Also, data concerning substantiated I.R.C. § 1203 allegations for the same period are
included. IRS management conducted inquiries into the cases reflected in these tables.




                                                                                      75
     TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
              Report of Employee Misconduct for the Period
               April 01, 2007 through September 30, 2007
                    Summary by Disposition Groups
                       (Table provided by the IRS)
                                                                            Employee
                                                     Administrativ
                                  TIGTA                                       Tax             Background
      Disposition                                         e                                                             Total
                               Investigations                                Matter          Investigations
                                                        Cases
                                                                             Cases

 Removal                                       78                     83               18                     2            181
 Separation of
 Probationary
 Employees                                      2                   139                  1                    2            144
 Separation of
 Temporary Employees                                                   3                 8                    1             12
 Resignation/Retirement                      110                    223                43                    15            391
 Suspensions                                 142                    263               123                     5            533
 Reprimands                                  155                    525               465                    16          1,161
 Counseling                                                         385               988                    38          1,411
 Alternative Discipline                        28                   110                22                     7            167
 Clearance                                   117                    152                  8                                 277
 Closed Without Action                       224                    345               102                  153             824
 Closed Without Action
 (Caution Statement)                         175                    141                98                    74            488
 Forwarded to TIGTA                                                   13                                                    13
 Suspended – Waiting
 Supplemental                                   5                                                                               5
 Termination for
 Abandonment of
 Position                                                             47                                                    47
 Case Suspended
 Pending Employee
 Return To Duty                                 2                      4                 4                    3             13
 Prosecution Pending
 for TIGTA ROI’s                               16                                                                           16

 Total                                    1,054                  2,433             1,880                   316           5,683

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
January 14, 1999 Extract Date: Monday, October 01, 2007 Report ID = T1R3a



   76
          TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
              Report of Employee Misconduct for the Period
               April 01, 2007 through September 30, 2007
                           National Summary
                       (Table provided by the IRS)


                                                                                  Cases Closed
                                               Conduct
                          Opening                                                                                          Closing
     Case Type                                  Cases                                                     Non-
                         Inventory                                 Conduct                                                Inventory
                                               Received                              Duplicates          Conduct
                                                                    Issues
                                                                                                          Cases

    TIGTA
    Investigations
    ROI1                             637                 932           (1,054)                   (4)              (0)               511
    Administrative
    Case2                            906               2,310           (2,433)                  (29)              (2)               752
    Employee Tax
    Compliance
    Case3                            733               2,160           (1,880)                  (69)              (0)               944
    Background
    Investigations4                    84                387              (316)                  (1)              (0)               154

    Total                         2,360               5,789            (5,683)                (103)               (2)             2,361

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-
01, January 14, 1999

Extract Date: Monday, October 01, 2007                Report ID = T1R1




1
  TIGTA Investigations - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct and
referred a Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a
matter of official interest.
4
  Background Investigation - Any matter involving an NBIC investigation into an employee’s background that is referred to management for
appropriate action.




                                                                                                                                    77
            TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
              Summary of Substantiated I.R.C. § 1203 Allegations
                    Recorded in ALERTS for the Period
                 April 01, 2007 through September 30, 2007
                        (Table provided by the IRS)


                                                                                        Removed                                  In
     § 1203                                     Resigned/           Probation                               Penalty
                            Removals1                                                   On Other                              Personnel       Total
    Violation                                    Retired           Separation                              Mitigated1
                                                                                        Grounds                                Process

 Seizure Without
 Approval                                 0                   0                   0                  0                    0               0       0
 False Statement
 Under Oath                               1                   0                   0                  0                    0               0       1
 Constitutional &
 Civil Rights
 Issues                                   0                   0                   0                  0                    0               0       0
 Falsifying or
 Destroying
 Records                                  0                   0                   0                  0                    1               1       2
 Assault or
 Battery                                  0                   0                   0                  0                    0               0       0
 Retaliate or
 Harass                                   1                   0                   0                  0                    0               0       1
 Misuse of §6103
                                          0                   0                   0                  0                    0               0       0
 Failure to File
 Federal Tax
 Return                                   8                   4                   0                  1                   34           16         63
 Understatement
 of Federal Tax
 Liability                               13                 13                    0                  4                   39           28         97
 Threat to Audit
 for Personal
 Gain                                     1                   0                   0                  0                    1               1       3

 Totals                                 24                  17                   0                   5                   75          46         167
Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board
records.
Extract Date: Tuesday, October 02, 2007




    1
        The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party appeal.



         78
                TIGTA Semiannual Report to Congress - April 1, 2007 – September 30, 2007
